'3DIAd3SlVlSOd>
S31V1S QBlINn I
0003'u Hf»ivN - 900E'I-uaaoioo
 IKgjJ ONO !JlllMlii^iii=li      NNVII/\I3S
1Va3N39 bOiOadSNI JO 30lddO
    •suojiDB 9AI103JJ00 Buipuodsajjoo
        puB 'sepuajoyap 'SLuaiqojd p
paiujojui iu9Lue6eueuj eoiAjes |B;sod
 puB 'ssajBuoQ 'sjoujOAOo am d88>| •
     puE :Ai!j6a;u! ujBJ6ojd ajoiuojci •
                      ;ssau9Aipaj49
   puE 'Aouapi^p 'Aujouooa apLUOJd •
                           IpnpuoosjUJ
puB 'aiSBA^ 'pnBJi p a p p puB luaAQJd •
          :oj suoipjado puB SLUBJ6ojd
aoiAjas iBpod 01 BujiBiaj suoipDipaAui
 puE 'SA^a!AaJ 's:npnB papuadapui puB
 aAjpafqc asiAjadns puB p n p u o o O) si
IBJauao jopadsui p aojjio oo'Ajas
       IBpOd S'n 9MJ JO UOISSIUJ a LL
             XN3IAI31V
                                            n
                                                                -oaj lUBaijiuBis 510 jo aouGidaooe juaojad ooi
                                                             'jeaA jsei pouad aoies agj jaAO pBdaii Ajeiauoiu
                                                               U! aseajoui UGHULLI ZP$ ^ :saujoDino Aa>i 6UIMO|
                                                                 -|oj am Uj saseajDui lueoijiuBjS Aq paouapiAB
                                                                 se sanuijuoo aojAjas iBjsod am o; an|8A JHQ
                                                                                                           •jjo^^a
                                                                 Sim Oi iqGnojq Aaiji iuaaiBpnf pauoseas pue
                                                             'A6J3ua 'aiuii am JO; jajjod >|osn iBjauao ja;sBUj
                                                               -jsod pue jayjiAi uJir ueiujieqo oi injaiBjB LUB |
                                                                                                   •spuoq JO Buj
                                                             -UBMlBu9J|s pUE Bujuapeojq E MO||S ijim saBueqo
                                                              MBu aqi pue sdiqsjaujjed JBp|oqa>)Bis jno anjSA
             '^'^^^^n^ c A j ^vYoAi                               I 'SJapioqa^ieis oj UOISSILU jno ajeoiunaiujoo
                                                                01 jajdujis qoriLU n a>iBUJ HIM aeueqo Mau Sjqi
                                                                                                          •pnpuoo
                                                              -sfuj BuNJajap pue BuiieSusaAui JOJ saqoeojdde
                                                                     le >iooj L|saj; e a>|ei laA pue saojnosaj BAII
            •AjunciBs puB Ai!j6e;u! 6u!AJ3sejd sassno             -eBjisaAui jjadxa pauoseas Aoidap 01 Aimqe
       -sip leqj J3jdeL|o ejejedas B aAeij ew 'AnBuy              am aABLi |||M a/v\ uoneziueBjo ssep-piJOM e
  •enjEA sppE i|iOM jno MOL| uieidxe pue soAg jno                  Ujeuiaj 01 isanb Buinuiiuoo sn u| anBe ajoLu
   qBnoJifl eojAjag |B;SOC| 3m jo 9;BIS aijj ssnosip          Ajieojieujejp aoioDaq 01010 sm ijUJjad IJIM UOIS
         aAA '3Jn;ino pasEa-soueujjojjSd 'pasnooj            -S]UJ p Aiijep pue acjoj aAjieBiisaAU! pa!i!un a q i
     -jauJo;snQ e MUM sjinssy SAamoy PL's 'sisoo
     sonpay 'anusAay siejauao 'aojAJsg 8AOjdLU|                                               •sjopadsu! leisod
          :OI.02-9002 ueid UOJJEUUOJSUBJI 0!68JBJ}S             jaujJOj Aq aiqjssod paixa am 01 pajiu aq suoji
    s.aoiAJSS lejsotj aij) u| paujjino S|BO6 O!63;BJJS        -ISOd aqi leqi aj|sap jno si 11 pue 'saBep OMI UI
        jncy am uo sasnooj ^JodsJ lenuuBiujas siLji          papiAOJd aq |||M >|JOM sim JOJ papaau saojnosay
                                             •aojAJSS                "SlclSn 9M1 mi'^ SUIEUJBJ S3UJIJ3 jEUJaiXB JO
   [Eisod am OJ sauBAoaaj pue 'suonnjijsaj 'sauti             uoiieBjisaAU! aqi puB AjunaBs io\ Amiqisuodsay
     Uj uoiiiioi g"g$ ueij; ajouj paujniaj pue lsuoi;               saiiiua iBUJBiui jo UOIIEBIISBAUI am Jot Aimqis
  -eujJOfui/sjuaLuiojpu! pus SJSSJJB gfS opew 8 M               -uodsaj iinj SAeq JUM Q\O BLJI -lOOZ 'Z Ajenusr
 :uo|pe aADejjsiuiLUpe jo] juaiiiaBBUELu o; OSS'I            Aa *0I0 8M1 01 (sidSn) aoiAJas uoipadsuj p p o d
 pajja;aj pue saseo [.gt'C pasop ^A^ 'uoiuppB u|                • g n 9M1 LU04 — jiBLu aqi p ijam aaAojduja Bui
                                                               -pnpui - suo|)e6!isaAui pnpuoosiuj aaAo|dLua
                                     •fr9Q'6S0'9Zl-Slo             6u|A0UJ JOJ paqsijqeisa uaaq seq aiqeiaujii v
lOBdLUi AjEiauoLu iBjo; B ui paiinsaj spojja asaL|j_
      •sauosjApB juaujaBBueuj pue sjjodaj jipne                                      '(010) IBJauBQ JopBdsuj ;o
  OOS panss! B M 'QOOS 'IS LIOJBIAJ L|6nojLj; '9002          BOioo SLU 01 BO|Ajas iBisod sqi UJOJJ saaAo|dujs
     'I. j a q o p o 'JBBA |BOS); sim )0 ;ieL| ISJIJ am uj   JO] uoipipsunf BAfiBBiisaAui jo JBJSUBJI sqi jo uoij
                                                                 -sidujoa aqj Bupunouue pjauBQ jaiseuijsod
 •|e;oj 5002 xd 941 oi pajedLUOO aouepioAE isoo                  aqi pue sjoujaADO jo pjeog aqj jo ueujjjeqo
uoijesuadujoo ,sja>iJO/v\ ui asGaJour UOIHIUJ oe$ 6                  aqi Aq Ajjuiof pauBis SBM LunpuBJOUjaiir s
 pue 'pO!J9cl 6ui}jodaj s\n\ apeui suouepuauiLuo              '9003 'OL qsJGiA] uo jEqi podaj oj pBseajd iue 1
                                                 '39 UOlOadSNI 3H1 lAlOUJ 39VSS3IAIV
                                                                                                                                                                                       » w « » » » ^ wt ^ U U U ( ] | t
                                                                                                                     '&^ijgA[oej pus 'ijo|LTi|i)^ci 'sour; ur papnpui Limnuv g
                                                                        5pQJJ3dfiLH;]Dlf9JAi;dlliSpElUS|!';3]]ei]|pdJ?|3J3qA£ul94Uej|Sil|lU!l>d]JQlf3lEUOlJ^                      V
                                                '^!?uaQf |irOuig:iiij|iiB Uui JSUID pue O J I A « S LHHIJSOSIII i^isi^d ? f\ ^m I|LIAI ^uoirDtiiL&SAUi lUfif 3^T\p\ii Si^rLBjieit; ^
     'SfiLLL4?su]uQi|riiug^LSueiUJiauEViLtrL^ip|iVr^^p^3UJWlui|i'Let|iSU1iL:]C3^                                                                                                  Z
                                                                                                                                 (i^t'tOVS 10 ^1^03 parJiMcJnSuri ssprq^juq i
IZL'GZ                    •                                         •                                                                          SJOBIUOO | B ; O I
VZZ'iZ                                                                                                                                   sjieo auoMdapi
LSg'l.                                                                                                                              sa6essauj neoj aopA
856                                                                                                                                                  IfB^pjepuBiS
eoZ'Q                                                                                                                                                                l!B|A]-a
60e                                                                                                                                        XVd - SIILUISOBJ
                                                                                                                                         5}oe;uoo a u i j i o H
S86'eS5'8S                                                                                                 gaoiAJas leisod oi lunouJV
996'SZ8'L50'1.S                                                                                       sSauBAooaj pue 'suounjusaj 'sauy
8!.8'gzz'/5$                                                                                                                                    aoueppAeisoQ
gOS'l                                                                                                                  suoipB aAjiBJispiLupv
001.                                                                                                          tSUOjSJaAlp IBIJiajd/SUOlJOIAUOQ
901                                                                                                                        suojiELUJOjui/siuaujpipui
Lt-L                                                                                                                                        S1S9JJV
855'2                                                                                                                      papidujoo suo|iB6|isaAU!
                                                                                                                                              f;SU0)}eB!)S3AU|
t'90'630'9il-$                                                                                                                                                        ilBlox
000*6Z9'S$                                                                                                                       pEduJ! anuaAay
SZl'BeVSSS                                                                                                       ,s)soo pauoijsano
568'l-e6'05l.$                                                                                             asn jaiiaq OJ ind s p u n j
65                                                                                                      peduji jBpueuij qjiMSyodaj jeioi
5f                                                                                               psnss! suoiiBpusuJujoaaj lUBOijiuBis
OOS                                                                                                                                              panssj siJOday
                                                                                                                                                                     HP"V
900S ' LS MOJBlAi - 500S ' t Jaqojao
                                                                            33NVIAIU0dU3d dO
V I 3UUO   I L H"."-!!^ - ^ U V G   I ^04"tJy
                                                [.5                                                                            AJ6SSO|9
                                                09                                                             luauJuojiAua aoE(dMJO/v\
                                                6f                                                         PV uoiiBLUJopi JO Luopaajj
                                                9f                                                              sasdouAs eAiiBSiisaAui
                                                gp                                                       uojieuijo^u; letuauiaiddns
                                                ffr   saupbuj sjoujaAoo jo pjeog pue |euo|Ssaj6uoo pasoiQ - H xipuaddv
                                                St-                             SI-OC§ -Q-STl 6S J9pun suoipe
                                                      aAiieBjisaAui aoiAjas uoiioadsui lejsod ' S n P Ajeujoing- 0 xjpuaddv
                                                ZP                                        soijsiiejs aAjieBipaAui - j x i p u a d d v
                                                ZV        uoiinjosaj npne u| suoisioap luaujaBBUBiu JUBOIJIUBIS - 3 xipueddy
                                                Ot'                                           suoips aAijoaJJOO
                                                           Buipuad suoiiBpuaujujoaaj     IUBOIJJUBIS mm  spoday - Q xipuaddy
                                                ee          9sn aaiiaq 01 p d aq spun; leqi suOLiEpuaLULuoDay - o xipuaddy
                                                l£                               spoo pauoijsanb JO sBuipuy - a tipuaddv
                                                28                                               Buiisiiijoday
                                                62       sii^uaq AJBIBUOUJ lEijuapd ajqeijiiuenb ^ m sjjoday
                                                82              luaujBBBUEUj aaiAJeg leisod 01 panssi sgoday - v xipusddv
                                                32                                                                        saoipuoddv
                                                IZ                                                          suojieooi ao!j|o JO dew
                                                92                                                            }jeL|3 (BUOIJBZIUBBJO
                                                C2                                                                          Aiijnoas
                                                eg                                                           sBiiiAipe aAiieBiisaAui
                                                OS                                              Ajunoas pue AjuBaiu! 6ufAjesajci
                                                91.                                                                aojAjas aAOjdixii
                                                El.      Bjniina paseq-aoueujjojjad pasncoj-jaiuoisno e qiiM sjinsBj aAaiijov
                                                LL                                                               anuBAaj aiBjausQ
                                                2                                                                    sisooaonpay
                                                2                                ssajBojd uojjBLUjojsuej} oiBajejjs Buissossv
                                                                                                     SINBINOO dO 31SV1
                                                                                                 a ^ j u u t l j U| 4.1UUdtl lUIIUUEIUJil^, | C
                                                   •9OOS Ad Ul sasuadxB isajaiuj Bu|iGuiuJ|ia
                                                       A||BnpiA 'goos Ad Lt! OJaz o j iqap L002
                                                      (Xd)JeaA|E3S!juoi||iqf;iL$siipaonpaj
                                                       OS(B aajAjag |Bpod a q i '0102 qBnojq)
                                                        spoD Ul uoiiiiq g$ iBuouppE ue p o 01
                                                       paBpajd jaqynj }| '(ainpaqos jo peaqB
                                                          jeaA auo) spoo ui uoijnq g$ BAOUJOJ
                          •uojiBBiiqo aajAjas             01 lUBLuiiLuuioa iiBid uoi}eujjojsueJ±
 |B£jaA!un Sll isauj o i pajjnbaj luaoJisaAut        SOO^ SJI iBLu aojAjag j e p o d aqi '^JOday
   ajnpn.iisEJjU! JUBOJJIUBIS sqi puE 'sjEsq           isnuuv SdSn 9003 SMl LI| pau||ino s y
   11 suapjnq jsoo |Euo|)!ppE am 9JB asaqj                SJBaA lusoaj u| s p o o s)| Bupnpaj ui
 Buoiiiv 'spoo BDnpBJ 01 AiJiiqE s,aoiAjag         ssaoons paAofua ssq aoiAjag lepoy a i j i
    IBjsod aqi peduji s j o p e j jo Jaqainu v
                                                        'jfjoMjau pnpoJdjiinLU paiBjSaiui UE 01
        'spBpnq Sll oiuj siiiBjBoJd uoipnpai      sijjoA^pu pnpoJd-ajBujs BuiddsiJBAo UIOJJ
p o o UJOJ) suojpnpaj jnoL|>|JOM JopB) pue              uoiiisuBJi OJ saiipsdEO Amioej su|LUBxa
     'SBUJAES iS03 puB sBpuapijjB pauuB[d              OJ suBjd aoiAjag iBpod am 'Ai|Buojjippv
    BABiqaE OJ sjaBBueuj sajjnbaj ssaoojd          'uoiiBOijiidujis p n p o j d puB ABopuijoai BIA
    l ^ p n q aoiAjag l e p o d am 'Aipuotiippv        SSBOOB JBLUOpnO JO SLUJOJ 1SOO-MO| 6LI|
      •eSBO 91BJ Q002 Sl! Opl SUJBjBOJd UOIJ        -dopABp Aq sjBLUOjBno qiiAi\ sdiqsjauiJed
          -onpaj 1S03 paJopBj AiaiEudoJdde                  panujiuoo saziseqduia ABaiEjjs aqx
    BBjAjag lEpod aqi leqi punoj a M 'sseo           •SUIBB AjiAipnpoJd BAjjp jaqpnj oj sjuauJ
-ojd 6u!>iBLUs]BJ aqj o p i SBUJABS p o o puB            -ISBAUi MBU BUIIBBJEJ puB :ABo|ouqaai
sapuBpDja pajopej AiaiBudoJddE aD|Ajag                      puB juBLudjnba Buipixa LUOJJ sjuauj
      IBisod aqi jamaqM passassE aAfi 'uoii           -BAOjduji BuijnidBo ijuamaSBUBLu u|eqo
  -ippe ui 'spEJiuoo JO ssauaAipajja-isoo           Ajddns puB suoiiBjado AjaAipp Anspadsa
  eqi Bu]Z!LtJ!xeai pue 'Aouapuja uojieiJod       'sjaAup JSOO ;O[BUJ uo Bu[snaoj Aq suoipB
      -suBJi ButAOJdujj ':>|JO'v,iau BuissaooJd    -!iqo ao|Ajas jBSjaAiun BuipBUJ jo p o o aqj
     IIBUJ aqi Buiziujiido 'spoo AjaAipp 6u||     BujonpBj liojjuoo ssaooJd pue uoijBzipjBp
   -|ojp03 JO seaJB aii] u| sjsoo aonpaj oi            - u e p BupuBdxa sapnpui ABapJis s i q i
       saijiunijoddo IUBOIJIUBJS BuiAjuuapi ui       •Aouapuja leuoijBJado BufAOJdLUi si s p o o
       aojAjag tepoy aqj papjsse >fjoM j n o          aonpaj 01 ABajejp s.ao|AJsg jepod a q i
                                                                           sisoo 3ona3a
                                 •sBSje asoLj} jO LJDBS UI pouod Guipoda.! '90OS '/ £ QOJSIA}
  i^Bnojifi 'goo3 'I JsqoioQ BLU Buunp pajaiduJOD S M J/JO/W }O uoissnosip e si dumoijoj                                                          k
     -93IAJ3S iB}S0ci dill 0} saBuaijBUD lUBDipudis siuasajd SfsoB 3iBoie.i}s assL/j j o QOB^
     -S3IAJ3S aAOJdini pue 'ajnj/na paseq-aoueuuojjed pasnooj-jauioisno e q i m sjinsaj
    QAaiLjOB '3nu3/\sj afeJsuaB 'sjsoa aonpaj oj a/e SJBOB DiBaiBjjS s.aoiAjas /ejsOc/ a y j
                                                                      'aoiAjas aiq&jaj p u s
oiQSpjo^fB BuipiAOjd aim/v. speau BUIIJBLU s.uoiieu &m saAj&s jsaq }Bq] asudjaiua aiqejs
 AjieouBun e uieisns puB saoiAjas JIBUJ I O an/BA aqi QAOjdLui oj spusiui n Moq saquasap
uBjd s,9DiAJ3s iB}SOd aq± -goos JSQ^^ldss ui panssi '0L02-9002 -usid UOIIBOJJOJSUBJJ.
       aiBajBJis sp ui paiB/noipB SJBOB aiBaieJis aqi pjBMOj ssajBojd s,aDiAjas /ejsod st/j
    ; o snjejs aqi ssassB SAAaiAaj puB sppnB j n o 'ssajBuoQ o j poday iBnuuBiujag siq} uj
   SS3U90Ud NOIlVWUOdSNVUl 3l93iVUlS
                                                          AiaieujjxojddB jo JSOD JBHUUB paujqujoo
                               •9002 Ad Ul (Ajp pue        B juesBjdaj puB JBUueui a^i|ssau|snq e
          pjm) suoiiBjado AjaAjpp JOJ sjnoq>)jOM          ui aiBJado oi AjijiqE s.aojAjag pisoy aqi
           pajaBpnq aqj p paojad z i ueqi SJOLU             joBduji suapjnq poo leuojijppe asaqi
        JO) sjunoooe pjaujeo jajjai Ajp OOO'BSS
        ueqi ejouj pue s p p d AjaAipp UGHHUJ gg                      •E>|seiv Uj aojAjas ssedAq
           ueqi ajouj qnM 'AjaAtjap Aip 'eaje auQ          jjE apjAOJd pnuj aOjAJag p p o y a q i •
            sBujABS /wau puij 0} sjjojja aAisuaiui jo
        snoDj aqi aq HJM pue jajuao poo paBjei              •jtBUj iBuojieujaiuj JOJ uojiBjJodsuBJj
              Sll Sj AjaAjpp lem papjs OiOZ-900^               JjB BuijOBJiuoo Ajaaj) LUOJ) aoiAjag
         .uBfc/ uoi]BujjojsuBj± DiBaiejiS s.aajAjag               [Bpoy aqi paAajd sAi\e| luajjno •
       iejsod ©MI 'sBuipiinq puB •uojiejjodsuBJi
                                                                                a iJBy ajBoipaiA]
          'juaujdinbB Buissaoojd ||BUJ 'jauuosjad
                                                             japun siuBitnuuB jpm oj aBejaAoo
      6ujpnpuj jueujjsaAui iueoi)juB|s B sajinbaj
                                                        Bnjp uojidjjosajd pBi)j[Bnb apiAOJd oqM
       AjaAjiap iieoi asneoaq aotAjag lejsod aqj
                                                            sJBAo|duiB Jamo 01 apBipAe apqaj
            JOJ leoiijjo Sj spoo AjaAjpp BuiipJiuoo
                                                         am aAjaoa.1 p u pip sDjAjag pisoy a q i •
                                   •siujod AjBAjjap
                                                                           aoiAjag |B)sod sqi q i l ^
          uoriituj W i 01 iBUJ JO saoajd uoimq IL2
                                                           luaujAo|duja Jiam 6u|jBpajd aojAjas
              ueqi aJOUJ pajBAiiap aojAjag jEpoy
                                                         AjBijijuj ,saajjiaj mm paiBioosSG spoo
        sm 'g002 Ad Uj 'SJBAjiap aojAjag iBpoy
                                                           SaSO ' ^ IsnuJ aOjAjag tBisoy e q i •
          aL|i pqi ijBLU (O aiiinjOA am apioaJddB
        01 '5002 Ad nBnojqi 8002 Ad UJOJJ UOj|                                lunoooe MOJOSS
         -jjUJ 6'2 ^Q paseajouj sjujod AjsApp jo        ue Uj suoijeBijqo (gygo) uJBpAg luauj
            jaqujnu a q i uojiBindod Uj sasBajouj        -ajrpy aojAjag IJAJO SJJ p 6ujpun)jaA0
       miM SMOJB spiod AjoAipp )0 jaqujnu eqi               aqi aoe|d pnuj aojAjag ppoy a q i •
        se 'jeaA qoea aojAjag p p o y aqj sa6ua|
       -jBqa spoo AjaAjiap uieiuoo oi paau aqi            :aje suapjnq jsoo qons eAi-j •spjejisuoo
                                                         jaqio JO uojiejSiBai o} anp aojAjag jepoy
                  sisoo Ay3An3a ONinoaiNoo                     aqi Aq aujoq pus papunjun AifB/jjed
                            'Spao aajqi Aiapuji             JO AijoqM 'sajepueuj aje suapjnq JSOQ
      -xojddB Aq dLUBis luaa-ge ^m P a^lJd aqj          •ssaujsnq jaqp Aue Aq aujoq p u BJB jeqi
       aonpaj ppoM suqiBBjiqo BAJJ asaqi Buiyji            suepjnq poo sjeaq aojAjag lepoy a q i
          •aAjpadsjad uj siqi p d o i "uoi|||q z'9$                    SN3ayna isoo ivNoumav
                                                                           •ainoj s.JaiiJEQ qaea M I BJnoi|5|WM
•J^
                                                                     •sjjun tiepj puE AjBAjiap pue
                                                     'spjJisjp 'SBBJE U! sajnpaoojy BuipjadQ
                                                    pjBpuBjg ijBjBy puB AjaAijBQ am jo uojpj
                                                  -uau.ia|duj| aqj BUJSSBSSB Aijuajjno ajs a/y\
                                                      •jaAai ijun aqi BAOqB IUBUJBBBUBUJ JO JBJ}
                                                  qoea JB saij||/qjsuodsaj jqBisjaAo puB pAaj
                                                    Ijun am P suoipun) p p j pue AjaAjiap HE
                                      •aojAjas JO 6ujBeueLjj     jo) saojpejd pjepuGjs qsjiqBpa
  Aouajsjsuoo saAOJduij pue 'ssauaAjjoajja        sajnpaoojd       asaqi sajnpaoojy Butpjado
 leuotjejado saseajouj 'spoo saonpaj p q j
                                                         pJBpuBis iiBpH puB AjBAiiaa Mau pue
        >|jOMiau soipiBoj aiqjXBij B apsjo oj si
                                                   LUBjBojd (dOS Vi\l) sajnpaooJd Buiiejado            'S3|qcj3Ai|3p pue 'aniBA
   QNd JO |Bo6 a q i QMg uB|sapaj ijioMpu
                                                            pjBpuEjs Bujujouj am Sl uoipzipjep           paiEdpjiue 'EsoJnosaj
     IJEJaAO sji s||BD 0103-9003 -V^ld UOUBLU           -uGjs AjaAjjap Ajp jo juauodujoo Aa^i v      BDjAjas Rsod 'saDJnosai
    -JOjsuRii oiBaiBJis s^aoiAjag jBjsod e q i                                                       310 'V™- JO 3 * n s 's|eo6
                                                                      '900S Ad Ul BuiuuiBaq saoji    /MAIpafqo 'snooj jo KSJE
                     ('LOOS Ad u! auinioA >tead                                                        9i|l Espn[3u| luauisajSe
                                                   -OBJd juaujaBeuBuj AJBAJIBP jaazipjepuBp
   aqiMOjBq saoBjd uoimq i g SBAAaLunpA                                                                a \ i '8uiej)atiiii 3ij|3acls
                                                         luaiuajduj! AipjODjo HJM sjjun jiBjaj puB             B U| >|ID)Vl JQ itpOCI
      IjBiAj ssBjO-JSJij '1?00S Ad U|} -ajnjonjjs
                                                    AjaAipp p q i Buiiejs jaijai B panssi iiBpy       3|)|33dSG0l6ultU3SU03
  -Bjjuj uoiiBpodsuBJi puB BuissaDGJd ijeuj
                                                       pue AjaAjpQ JO juapisajd aoiA aqi 'suon          'luepisajd saw 90|W3S
 s.aoiAjag jBpOd aqi uj Ajpedeo sssoxa u|
                                                   -epuaujujooaj pue sBuipUjj jno uo paseg             leisOfl iJEdjaiunos Jism
pajjnSBj aABq sojgdejBoujap uojieindod Uj                                                                 puB joiDBJjp iipne 31)1
                                                  •podaj Bujddeo puojpu e qijM luaujasjBe
Sijjqs puB 'sjaiieuj Aq Bujssaaojd jpai pue                                                                UB3Aii3q lUniusajBe
                                                           uojjjsodojd aniBA siqj papnpuoo a/v\
   uojieaioinG paseajouj 'jopas ajeAjjd aqj                                                             UG S| 11 'SOtUSS l^lSOd
  LUOJJ uorjjjadujoo paseajouj 'aujnjOA tpt^                                                            aqioipappesnieAsin
                                                    sanssi asaqi pajjoo o) BUJUJBJI paptAOJd
 SSB|0-1SJ|-| Ul SailJIOSQ 'VIJOMpU UOjlBlJOd                                                           SriUJIffilU PJH SB[J[I\BS
                                                     pue sajnpaoojd A^au pejuaujaiduji Aaqi           PjsiA pincD 'uojiGuiiLiexs
-SUBJJ pUB BU|SS30Ojd ISBA Sij JD uBjSBpBJ            suojiepuaujujooaj pue sBuipuij aqj q)jM         miM 'IBqi seajB Ajiiuapi
BAisuaqajdujoo B JOJ paau aqj sazjuBooaj             paajBe spjjjsjp OMJ aqi ui luaLuaBauGn              0] BD|/J3S JBISOJ aill
 aojAjag leisod a q i •6t//sssotty //e/i/ eajv    •spoo aiQBjaAooajun uj uojniuj 5 L$ jnoqe          miM Aiiujoj >|JOM 01 ^iiiqe
   pue iuauidoidAao >/JOAip/\/ AjcuoijniOA^ p paniBA 'spjjjSjp OMi asaqj uj sjnoq>|jOAi\                    s,910 S'll siuaiuBne
                                                                                                         iioii|EodoJdan|E/\8L|i
                                                  paijjpnlun ggc'ZSL paiJIluap! aw '5002 'LS
                              •(01AJ9) sjajuao                                                                   Q3Nid30
                                                      AeiAi LjBnojqi j Ajgnuep UJOJJ •peo|>|jOM
 ijBiAj >||na JO Aouaioijja aqj pue 'saAneitjUj                                                             NOIllSOdOUd
                                                         qijM SJnoq>iJOA^ qopuj Apjenbape lOU
    (dlAlv) Bujssaoojy IIBSAI eajv P^ie {aN3)                                                                      3fnVA
                                                        PIP spijpjp passasse aqj jo OA\I UJ SJa
   juaujdoiaAaa >iJ0MiaM AjeuoijnioAg aqi
                                                          -BBUBUJ puE sJOsjAjadns jiun AjeAjiaQ
     passasse BM 'pouad Bujpodaj aqi Bui
 -jno -spoo aonpaj pue Buipueq pnueuj                      •ajnoj s.JBiJJBO qoaa JOJ sjnoq>jJOM
   9U.I0S aoBjdaj oj paujdjnba uojpujojnB               BujUjiLUBiap uaqM saujnjOA JJELU Ajjep
  padopAap aojAjag jeisoy aqj 'Aipapjjja             eqj BuiMaiABJ AjajanbapE Aq suoipjado                                              i
    ajouj jjBUj aqi ssaoojd o i -Ajjenuue uoij          aAOJdujj UBD juaiiiaBBUBUj punoj a/v\
  -jiq 52$ jnoqe jo jsoo Buipjado ue qijM             "sajijijOBj AjBAjjap sajv sa>jE-| jEajQ z i
      sapjqaA ooO'tLS pue 'sajno; ^IJOMPU              ui suoipjado BumaiAaj Aq paujaajBE
 ABMqBjq 09Z'9l 'saijjipej g/g qiiM p|JOA^             jno papidaioo B M 'suoijEjado jauJEo
     am Uj jsaBjB] aqi jo auo S| >IJOMPU BUI        jBijai Aip JO juaujaBBUBUj aqj passasSE
         -ssaoojd iieuj s.aojAJag jepoy a q i       IjEjay pue AjBAjiaa jo luapjsajd aojA am
                              >1H0MJ.3N             miM sjuaoiaajBB uoijisodojd anpA IEIIIUJ
        9NISS300ad l i ™ 3Hi ONIZIIAIIidO         jno JO auo suoiiCJadQ JOUJBQ jauai MlO
     S I 3UUL i t H^'^lfa   aUUO t •*^H'J|"U
                                                                                                                                     •QMS Lll!'^ pajejBajui
                                                                                                                      BJB saBueqo >)JOMpu jeooi Bujjnsug •
                                                                                                                                   •saGueqo lejuaujajoui
                                                                                                                         aN3 JO UGjpjBaiut pue aouanbas
                                                                                                                       jadojd ajnsue oi sue|d BujdGjaAaa •
                                                                                                                                               •BujSsaoGjd
                                                    'eoiAjag lEisod 3i|i )• issjaiuj ssaujsnq isaq 8L|1 UI uaeq
                     ^^e^ pousd Buiiiodai ai|i Guiinp apcm stuauiissAUj |E]|{1E3 am leqi puno) 9,v 'tieJSAO
                                                                                                                         ijBuj puoAaq ijjoMaujeJj juaoiaBe
                         •8S1 Jaiiaq oi ind p|noa saiiuas |Bisod am lEiji uoiimii 2$ Biij^iiuapi 'aaue^u] aim              -ueuj palojd QNB aqi BuijeAag •
                      u| 'puE 'sassaMid ssauisnq paMiiiluji pus ssaooJd jBADiddE paujjojui A||ij sioui B U|
                       GuDinsaj 'pai\|93aj i;aM uaaq sneq suQ|iepuauiiui»3J pJG siuauissassE jno 'siep o i                                        •sajjjipej
                                                                                                                    sajBpjpsuoo aoiAjag lejsoy aqi uaqA^
                                                        aiBiidojddB SE 'goa sm puB 'oio ^m 'BjauEfibpeaH
                       asiJuas p s o d 'josuods uvQ aqi qi[M pajeiis SJE suojiepuauiiuooaj pus siinsaj a n
                                                                                                                        oiiqnd aqi BUOLUB BSIJB ssujipujos
                                                                                                                      )Bm sujaouoo 01 anp 'sanssi aBueqo
                                 •aajAjas lEisod am DI luauiisawi lEifdea am jo uoiinqifluoo IIBJBAO aqi pia       >iJOMpu UO sjap|oqa>|Eis MIJM BUJHJOAA •
                        'UVQ sqt JO) uoiieuiia|U| Suiuoddns am |D mdap pus Aomb^E ai|i 'aouuas jEisod
                           aqi )o isaiajLij ssBLijsrtq isaq aq) u| S| pstoJd [EndEs aqi jaqiaqM |o luauissassB                       :saBua||BL|o 6UJMO||OJ aqj
                                  lieiBfto uE apiAOid BM 'jaiEaiB JO UOJIIIU] 92s jo suauJisaAui lEijdEa I|B JOJ
                                                                                                                     pauiipo p q i aAjpijiui aisjg aqj uo jjodaj
                                                        •yVQ aq( jO) uoiieuiiojiii Guiijoddns aqi jo foenbape           snpjs B panssi BM 'pojjad BuijJodaj
                             eqi puE |uaLuisaALi| jaiidEa aqi JOJ asEo ssaujsnq aqi jO ssauaiqBUOSBaj aqi |0          siqj BujJnQ •saBuajjBqD AUBUJ sjuasajd
                       luauiSsassB HEJano HE apinoid aw 'uoimui g^s UEqt ssai s|uaiuissAU| lEjidEO ||E JOJ
                                                                                                                          >^JOA^lau aqi Buiuiiuieajjs 'ssajBojd
                                                    :qDEOJcl[lB pajai|-omi E 6J|SII smajABi asaqi lonpuco B M         apBUJ seq aoiAjag ppoy aqi qSnoqiiv
                       *ieisiiac} jaisBuiiSQd aqi ^q paiuiodde saA|tnaaxa laisod JO|uas [O aaitjmmoo E ' ^ Q
                      sqi 01 paujiijqns luvo) siioday SISJ^IEUV uoisjoao HE wawaj B M 'SiuawiSSAui iBiideo                    •saiiai uoijjjLU gg ueqi ajouj
                                  •qaoz fLEvi f^ MaiAaj sit Gunaidiiioa saiEdpnuB aauiiuiuoo aqj suopBinBaJ            BuiJBAOO sajnoj ABA^qBiq Bupnpay        •
                         lEjapaj puE saioiiod aaiwas leisod Jaqio qim tojaisisuoo pue UO[1E3I)!JB|3 spiAoid
                      d|aq iiiwi leqi suojiEpuaiULiiooaj BUII^EIIJ PUB 'sasiadxa iBpiijO ,SJOUJD/\OB 01 BUUBIBJ                                 •suoijejado
                               sauiiapinB si\] Bujw^Aaj i|i|w pa>|SBi SBA^ aamuiiuos aqi 'aaiijuiiuos MajABi E     Buissaoojd iieui appipsuoo oj sajpnp
                         paaijoj 910 eqi pjE aoj/uas lEisoj aqi 'isanbaj E|q) ssajppE o i „'sasuadxg [Bpi^jo          Aiiiiqiseaj 09 ueqj aJOuj BuijonpuoD
                             .sjoujBAog Dl GL|ie|By saujiaping. aqi jo wajAaj B paisanbaj uciLJiuqa 909 ^Nl         pue SjBsodojd yiAjv Vi 6u|iuauja|duj| •
                            'potiad Buiuodaj aqi BUIJOQ -ssufi^inB pue 'sajnpaoojd 'sapi|0d d w s s leisoj
                           qi|M eDuc[|diuo3 ut puE panoddiis Aiiaclojd atam Aaqi puno] puE 'gEjg 1 Ad aouis                                      •sajiiijoej
                              sasuadKa asaqi pailPiiE aAeq aM sasuadxa uojieiuasajdai puE lanmi .sjasjuo
                        aDIAjag (BISOJ PUE sasuaOiia sioaueiiaosiuj pue laACJi sji |o siipne lenuue saiinbaj
                                                                                                                    Buissaoojd jpuj 06 uem s-iouj Bujsojo •
                        90a a m 'siuauaiGis |E|3UEU|) s,a3]Ajas iBisod aqi uo uo[U[do [lEJBAt) s.iueiunoooB
                     Sjiqnd luapuadapuj s,309 ^m P iioddns u| siipnE lanpuoa a ^ -sasusdig laAmj 0 0 9
                                                                                                                             •SJBaA JJBJS ooO'oe 01 sajEnba
o                                                                                                                  qojMM 'sjnoMHJOM uojujui / g j Bujonpay •
o                                                •(310) aaqiiitmoa siuajiisaAui |EI|IJEO s.aoiAjag lEisod eqi
UJ                   puE O09) sJoujaAog jo pJEog a^iAjag IBISOJ aqi 'sjapjoqaijEis lUEpobujj ISOLU SIJ JO                                     :8pnpuj SJBaA 9
                     DMi ijoddns 01 UOIIBUJJOJUI saiHAOjd pue >IIOM jipiB JOJ sisatibaj 01 spitodsaj 910 aqi
O                                                                                                                     pei aqi JSAO sjuaujqsj[dLUOooe aojAjag
D                                          33iillrtIW03 SiN3IAIiS3ANI 1VildV3 QNV                                     jepoy 'saBuBqa >JJOMIBU luamaiduji 01
a                           syoN«3A03 do aavoa 30iAa3s nvisod 3 H I aod iuoddns                                       qOBOjddB jejuaujBJDUj ue 6uisn sassao
UJ                                                                                                                   -ons Ajjea sujos peq aojAjag lepoy aqi
cc
>
o
UJ
!5
CC
J_
CO
                                                                                                                                        aa<iiuuuJU|lJUUdmmiUUi!1Uli«H j y
                                                                                                                             •aiiiBBs
   01 si|odeainii[^ moj; pus :eiiiAuos5i3Hr pue otoqsusaig 'eiiiEiiv oi sapBiiv soi uioij sdui |iej 005 uBtii Bjotu pe^rtieue aio aqj.
      paujujBxa a/v\ •Sjepijjo uoijeiJodsueJi
sjBijenbpBaq puB 'eaje 'juejd qjjM uoijeja                                                  •SJBBA OJ jxau am JBAO UOIJ
  -dooo aso|0 pBAjOAUi pue 'seaje aojAjag                            -||LU 8l-L$ inoqe jo sjsoo pjOAS dpq ppoo
    jepoy auju ||E UJ >|joAft pajjBjap papnjoui                           suoijonpaj asaqi 'SJnoLjHiOM OOO'OOI'
  jlpnB spjMuojjBu jno 'jJOdaj AjBLuains e                                Bujonpaj Aq Aouapjjja aAOJduJi sojAjag
     Bujpnpuj 'sjjodaj g j pansst pue sajnoj                          IBjsoy aqi p q i papuaujLuooaj puB 'OW^
   uoijBpodsuEJi BOBjjns oiAjB psJIpne aM                                "0*a 'uojBufqsBM sqi le suoipjado Bu|
   '9002 qoJBi^i puB t?00S MOJB[AJ uaaMpg                               -ssBoojd ijBuj JO Aouapjjja aiij passassB
                                                                       aflA 'uojpqjjpjp JOJ |3ajBdajd BJB sjBOjpo
                     •sajnoj ipj pue AeMqBiq
                                                                    -|jay pue '(IJBLU BUISIJJBAPB) JJE[AJ pjBpuBjg
  uo saouepjp 6uoj jaAO paAoai AjpjauaB
                                                                           'jsoy pojEd BJBijM sjuBjd Bujssaoojd
Sj puB 'jiBiAj sseio-jsjjy se qons |ieuj jaqp
                                                                           jiBUJ paziueqoauj A|q6jq BJB soiAjg LS
ueqi aAjjjSuas-aujij ssaj Sj JIELLI :>j|na -^IJOM
                                                                              ailL sjoiuao iiej/\j >jing jo Aouaioijj.^
    -J9U OlAia Sl! SI >1J0MPU UOIJElJOdSUBJl
    aoejjns s.aoi/viag lejsoy aqj jo luauod                                                 •Aouaiouja |ei.iO|jejado
-ujoo jueo|jiu6|s v 'sepioy uo!iBiJodsuE.i±                         asBaiauj oj >iJGMpu sjj SUJJGJSUEJJ jaqjjnj
 ajBjjns jaiuao i!ei/\j >iing yo uoiiBZiiuiido                       11 SB aoiAJBg jBjsoy aqi qi|w Ajasop >IJOM                                                             A
                                                                           0} anujiuoo JJIM B M •paAo;du.ij aq UBO
                        •(0S311A1) sjaiueo                               aouBpjnfi puB ssaoojd aqi jo juaujaBe
aojAjag juaujdjnbg podsuBJi JJBIA] aqj puB                            -UBLU 'jBABMOq ipunos AjjBiuaujepunj aq                                                               A
    sojnoj uoippodsuGjj aoejjns oiAia ^m                            OJ ssaoojd y[A|V ^Ml putioj a/u\ "saajnosaj
 passasse aw 'pOjjad Bujjjodaj aqi Buuna
                                                                                                                                                                            1
                                                                          asn jajiaq pue 'Aouapuja BSBBJOUJ 'AIJ
     •apjMUGjpu s>iJOMpu ipj pue AeMqBjq                                 -OBdBo ssaoxa aj6uiuj||a puB suojpunj
   ssojoe jBUJ aAOOi oj uoijeiJodsueJj aoej                             BujSsaoojd ipuj ajBpjpsuoo oj ssaoojd
    -jns paioe4uoo JOJ Aiienuue uojinq I'z^                            siqi sasn aoiAjag jeisoy a q i ^siiOGiq Bui
     ueqj ajouj spuads aoiAJag isjsod a q i                            -Plinp QNB ^Ml P 3UG aje ssaoaid yiAjV
                  NOIiVidOdSNtfdi ONIAOydWI                                aqj qBnojqj apeuj seBueqo >iJOMpis|
                        saiEJ aiqcpjoijE ic aoiAJSs lesjaAiun apjAOid oi ftijiqE S]| az|pjBdoa|
         p|noA^ aqi 'uoiieisiBai jejinau-iaBpnq sassed ssajBuoo j | sAes aotAjag lejsDd aqi
        a|iqu 'leitnau jaBpnq lOu s| IELII uo|iG[S|Bai pasodojd J^UE oiaA p[noM aq paiEOiput
        seq luapisajd aqi 'jaAawoji •AJISBBIJ, aq] o; Hoeq sisoa luaiuajiiaj UJEUBD jaisuBJi
        01 uofSjAoid B pue leaA qaea AiojDsa ii| uomiq i £$ aoEjd oi luaiuajinbaj aq] iuoJ(
     j a p j leiauButi sepn|3U! mq qaBj •900s ^Enjqaj ii| LOISJSA jBitmis B passed ajeuag
         aqi puB goos H"C "11111 "ijojaj si| passed asnoH aqi se 'asop aq Aem uo]iE|S|Ba|
     |EisO(j 'sisoD Bu|6euBUJ JO qol aiqEpuautuJoa B pip saiAjas IBISOJ aqi 'JEaA ised siqj.                        •sapoj uojjepGdsuGJi pajBJado pue
                                                                                          •)|i0M 01              pauMo-aoiAjag jBjsod apnisAa oj uBjd
      BujujniBj saaAoidiiia psinluj jo jaquinu aqi aSEatauj 01 dOA'iO 10Q a4l ilIP eA|iEii|j|               puB 'sainoj uojieiJodsuBjj (oQSy) jajuao
    lujol Sll puB saunlui qi^-sqi-uo luanajd 01 suoua BuioSuo s|i jo iinsaj E SEW uoipnpaj                       uoijnqjjpK] pue Buissaoojy Buissasse
    s|i|i lEiii paieis aoiAjag IBISOJ aqi uomuu l O t ^ AtaiBiUfXOJddB Aq pasBajoap asuadna
       uojiBsuadiuoD .si9>iJom 'goOE U i-i! '^IIBLiotiippv 'UBILI JO saoajd JBLOIIIPPB uoimq >i!S
                                                                                                             AjiuBjjno sjE a/v\ •sjsoo aonpaj oj saijiunj
           puB s^j|od AjoAiiap leuojiippB uoiniuj OAM JO unsaj E SB PEDJHJOW paseajoui eqi 01                -joddo Ajjiuapi pue sapoj uojjEiJodsuBJi
       anp SEW aseanut jnDq>|JOAi uo|i|iui [ L a i [ i JEBA JOI id aqj JBAO pasBajoLii sjnoq>|JOAt                aoBjjns apnieAa 01 aaJAjag p)soy aqj
                 'SjeaA 9 u| aiitij isjij aqi loj 'jaAamoH ' Q U ' W l oi 9St70Z uioJ| S3ato[duia            L|jjM ^JOM 01 anujiuoo HJM B M 'suojionpaj
                jQBjeo 10 jaqtunu aqi poonpai aojAjag IBisoj aqi 'goO£ Ad 01 fOO£ AJ uioJJ
                                                                                                            uoijEpodsuEJ) luaujBjduji AjpjdEj GJ UOJJOB
                                                                          •(iejiJffi|s aifl jaAoo 01               aAipeoJd >ioo} sjepjjjo uojjejjodsuejj
    uoimq i s iSGa] IB woiioq 01 sioBdiia aaiAjas leisod aqi 'ejojajaqi siuaiuisaAiJi lEiidea
                                                                                                              aojAjag jejsoy 'sjjpne asaqj inoqBnojLii
      IIE pue 'uo|||iq t ' c s |e paieuijisa 'Mojasa aqi puni ci luapiuns aq lou \\m sjoiiEjado
          liiojj MOD qseo 'gooa AJ JOJ 'Mei Aq pazjJoiiinB asiMjaqjo niun luads JO paiefinqo
     aq lou puB w j a s a ui {^aq a(| (sejinbaj lov aqi suo||nq|JiuD3 aiij puE AAB| BIU inoqiju
                                                                                                                                         •aspajdujj SBM
            p|Ed BABq pjnoM aoiAjag iGtsoj aqi lEqm uaawiaq aouajajnp aq]] „s6u|Aes jsoa.                    sBujAes sjnjnj jo uojieinoieo aqi '>|j0Mjau
         saiinbai p v aqi '9002 AJ u| euiuuiBea 'siaAai iqap s.aaiAjas leisoj aqi saauanijui                  UGjjejJGdsuBj) aqj jo ajnjeu oiiueuAp aqj
     AijuBotjiuBis E0021° W uiiojaH Bujpunj uiajsAs lusuiaKiay aaiwas ||A|3 iRSOd a m                         01 anp jeqj 'jaABMoq 'pajou Aaqi -sjuauj
                                                                                    •JBaA qoBa              -ssasse pEdujj Ajejauooi Jno qiiM paajBe
        ISBjaiuj UJ uoiiiiiu ZgE$ |o aBEJaw UB pied aajAjas IEISOJ aqi qaiqw Buunp 'EOOS                         AiiBJauaB puB suotjepuaujujODaj jno jo
      qGnojqi lOQg AJ °\ patBduiOs '5002 AJ u' SBSuadia isajaiuj BUIIEUJUJIIB AiienuiA u|
                                                                                                               lie miM peajBe sjuapjsajd aoiA eaje a q i
     paiinsai siqi 'BuipuBisjno siioiiBBuqo iqap ou i i i w jeaA aqi papiia aoiAjag iBisod aqi
        IBqi U 6 l u| uoiieziuefijoaj iBisod aouis JeaAisj|| aqi S| qsiqw 'iqep Bujuiaujai {|E
    Aedaj 01 8OIA»S leisoj aqi paiqBua go02 AJ "I suotiejado UIOJJ SVOIJ IJSEQ •^OOZ J 6
                                                                                                                                •sdui J9MJO uo pajepips
       u| uoimq 9' 1$ 01 LOOS Ad "! m\\<\ Z' L LS ludjj iqap sii paanpaj aojAjas lEisoj a q i                 -uoo aq pjnoo puB MGJ SBM auinpA |ieuj
                                                                         •SJnoqj|Jow UDimuj z t
                                                                                                                se aoueujJOjjad auiji-uo JIBLU Bujpajje
       BujiBunuiia Aq uc«iiiq i ' i $ jo suaianpaj iso3 fiuipnnui saseajDuj asuadio BuREJado                      AjaAjjeBau jnoqijM [3aon|3aj aq ppoo
     lllllll Dl siaadxD OS|E H BSEaJDUi ajej [eisoc! goos Aieniier aqi 01 anp A||jeujt)d 'gooB              spoo uojjeiJGdsuBJi •sajnoj AeMqBjq pajn
            Ad Buunp aseaJOU! 01 anuniioo 01 sanuaASJ sioadxa aaiAias leisoj a q i goQS Ad                   -pauos UG aoeds sssoxa ui HBJ Aq paAouj
              U! uffljiiq £ a s $ OJ |'O02 Ad "f "oill'fl 6'G9$ uiojj paseaJDui sasusdxa ButiEJado
                                                                                                                Ajjuajjno ijeuj aiuos BuipodsueJi Aq JO
          l i q 'tOOg Ad J^"^ uo!i|iui frssi; paseaiauj sanuaAaj 'uoimq OZS Japuu 'nqfiiis i v
                                                                                                            lAouanbajj djjj aonpaj JO sdjjj apuiujjja 01
         •ajnpaqas jo peaqs JBBA nnj B JEOB uoijanpaj isoa uomiq 5$ sii paAaiqae asjAias                       Sdji) ABMqBiq painpsqos OSV BujAjipoLu
    leisod aqi 'BBUIABS ISOO U| uoimui OOZS1° KiaiEAinlM aqi qijM 'jaqund uonjiq m jo
       auiODUj lau E BujZiiBaj 'eoot! Ad u| siinsaj aipB>|JBiuai paABjqoB aaiAjag iBlsocj aqj
                                                                                                                Aq sjOEjjuoo AeMqBjq papajje jo UJJBJ
                                                                                                               aqi jaAO uoimuj g ' o H poqe BAES pinoo
                                                uo|}|soc] | e | o u e u | j s . a o i A j a g | e } s o d
                                                                                                                GOiAjag jBpoy aqi pqj papnpuoo a/v\
O                                                                         'sjus(u3)e/s lEioueuij
o    aqi uo uoiujdo s,}us}unoDDS juBpuBdapui eqi }0 jJOddns ui pauijopad                                                                        •aiueag
          9M suoiieiiBssui 3VIAJ3S isiSOd p siipne lepusuij aqi j o Ajstutuns                                  OJ sijodEauuiiAi UJOJJ pue lajijAuos^ioep
             B puE uc«iisod iBioueuy s, soiAjas l^isod s m 10 3u;iino 1 /c S' 9 J B H                       pHJB OJoqsuaajQ 'BIUEJIV 01 sajaBuy SG")
                                      S3nN3A3aaNVSiSO0                                                        UJOJJ sdjjj jiej 005 UBqi BJOUJ pus 'sd}Ji
    S,30IAy3S IViSOd 3H1 aOd INROOOV SiN3W3iVIS 1VI3NVN13                                                   AeMqBjq 005'6 ueqi SJOUJ BUJJBAOO spejj
                                                                                                            -UOO uoijeiJOdsuBJi AeMqBiq ooi'l Poqe
                                                            DuunG •pailpnE si|un aqi jo ||B ISOUJIB JE BAjiOBija puE
              puB BuiiunooDE |E|3UBU|I ;Ait]|qeiunoo3B                                                                        U| saaijiD jsotl snojBiLinu le (doS W ) sajnpaoojd
                                                            aoE|d Ul AiiEJBtiaB atew sjOJiiioo jELuaiiii pLie suiaisAs
        dujBiE pue qseo oi paiB|aj sanssi a3UB||dLJ03                                                                            SjilBjado piepiiBis SUIUJOLU JD uoiiEiuauaidiui
                                                                leiauBUt) a3|AJBS IBISDJ U| paiuasaidaj AIJIBJ BJBM
            puB lOJUioD pauiiuBpi SM 'gooe Ad Buunn                                                                                  aqi pawaiMj aM 'isanbaj s.iuauiaBEUBUJ i v
                                                                 suoiJOESUBJi |E|OiiEU|j |Eqi papoi^oa BM '|IB;SAO
                                     •paitpjTB muoui am      sajnpaoQid pue saiDjiod paquDsajd qim aouepjoooe                                                            suojiBoq
   JOJ sainjipuadxa pue '|ieiu ^ J ssaujsnq 'saojAias         U| sissj pspnpuoo AiiBjausB B3|Ai^ leisod aqi leq]              lOLqstp luaJBjjip IE EIEP aujnjOA pue 'anuBAaj •isoD
       xoq aoijjo jsod 'sjapJO Aauouj 'nojAed Ouipnpui        p^n|3UD3 pUE SlIpOB S|SA]EUB atlUBAaj pUB IS03 QZ            JO siss] iBBijspBis Buiionpuoo sjopaiioD eiep aoiueg
    •suotiBJado |B|ouBii|j s.aoiAjas iBisod aq| jo jDadse    papnpuos aw 'uomppn u] 'JBaA leosij lOud Bin Buunp                lEisod BAiasqo OSIB B M •(OQS) saoijjQ ijoi|nq|jjS|p
 AjaAB isomiB AWIABJ OSJE ajv\ •qsEa pue SPLUEIS IJB JD           anuBAaj uj iJOjinq 6'f$ A|aieuj!XOJddB paiBjauaB            duiEis puB 'lodVl siaiiiao leisod paiButoinE '(ndO)
  siunoo iGtipuQ.T Bif. 'JEBA qoBO SBOJUO jsod papaias        leqi sa|i||!3Ej uo spodBJ gog panssi am 'goos AJ U|            s^un leisod pEJiuo3 '(odSS) sjaiuas IEIEOCI aoiAiBS
        A|[B3qs[|Eis JO siipnE paojnouuEJti jno Buuno                                                                       -Jias '{fijHa) siiun AJIUB IJEUI ssauisfiq 'saoij)0 isod
                                                                                                               *s|aAa]
  •suo|)eis puB 'saqojEjq 'soamo uieui apnpui tjaiqw                                                                         Bpn|3U| suo|iB||Bisu| 'suq|B{|Bisu| acMjas leisod JO
                                                                 sjajjBnbpeaq puB eajB sqj IB sanssj oiiuaisAs JOJ
 ' s s m p jsod )e anuanaj ajeiauaB suoiiEjado BSJAIBS                                                                    ajdujEs BAiiBiuasaidaj c iipne au 's|qi qsjtdujoooB o j
                                                               puE laABi |E3D| aqi JB siuaiuoAOJilLui ;euo||eiado JOJ
 lEisod •soipuEjgpuE -suoitEiS 'saDjuo Jscy
                                                               stioji^ammoaaj ]UBOIJIUB|S 6ui>ieuJ 'siiodai ijpne                                                      •BuiiiRU
   '13|Jls|p auo Uj sascqoind PJBD iipaJ3 aiqEUDjisanb          jEpuBuij Play 005' L ueqi BJQUI patissj BM 'SJEBA g           -uoistoap JOJ luamabEueui Aq pasn EjEp |E|OUEU|J
     Bu|pnpu| 'S1SD3 pBuojisanb u| OOD'OOBS ^I'sau            ISBd sqi jBAO •SBBJE a3|AJ0s [Bisod au|u aqi jo qoea            JO A^||qei|aj pue AOBJfPos aqi BuunssE U| sisjsse
    JO uoiiEDjiRuap! Bill puE Ajjnpqi iBUjuiua joj |0 oi    01 suodBj BiijddBo panssi OS|H BM 'goos AJ U| siipne                s|qj -aftpoajia PLIE BOEIP U| BJE SIOJJUOO leuiaiui
     s|EjjBjaj u| paiinsaj leqi sioa[ojd iBuomppe BAI]             lEnpiAipuj aqi JO sjinsaj UBiaAU aqj BuizuBuimns           jBqiaqw puB spjoooj BujiunoooB aqi ui paiuasajd
papnpuoo aw 'unsai e sv 'Siipne uoiiB|[eisu| [E|DUEUII      •sjaiiEnbpeaq oi BIIOIIBJ Buiddea anssj aw 'jeaA [E3S|I              AjjiBj pue AiqeuosEBJ BJE sunipesLiBJi lepuEUji
   JO ad03S iBUJJou aqi apisino siipne paiuBJjew leqj          qoea jo pua BLU l y luaiuaBEUBiu |B30| pue lo^sip            jaqiaqM auiiujaiap siipiB JOQ uotuido sjqi poddns
       SEBJB ^su-qGiq iBianas paijiiu^i juauja5BUEiu           01 liodai E anssi aw 'npnc qoea go uoisniouoo aqi               0) suaiE[iEisui IBisod JO siipna IEIOUEUIJ jonputo
   BOiAJBS IBisorf puE aoijjO ino 'gooa AJ Buunp oS|v         IV paounouuGun aje supne UDIIEIIEISUI JBIOJBUIJ UV               HM "sjuaiuaiBis |B|OUEU|J s^aoiAjas jeisoj aqj uo
                                                                                                                           uo|U|do UB sanssi JOiipne luapusdapui UE 'JEaA qoBd
                                   •fiulOpBuOJM 1BU|LUIJ3                                              •Aflunoo eqi
  paioadsns BM UBIIM |IO) SUOIIEBJISBAUI JO aoijJO Jno      ssojoB EuojiBODi jiBiaj JB SBjnpBOojd Aijjnoas UOUKJAB                                 SNOIiVIIVISfJI
     0| B|BJjajaj e t Bpeuj BM 'I|JOM jno jo asjnoo aqi     D] aDUajaqpB BuiiEUiBAB BJB SIA 'goog Ad ui 'SOOe Ad                      IViSOd do siianv ™oNVNid
                                                                               saaAo|diu3 pajeaipaQ oo6't ^ 0
                                                                                           uoijBsituBA iiBiAi ijina
                                                                                                  •3aNVid33DV
                                                                                                                         AiienuuvsBuiiiBW uotiijw + VZl
                                                                                                                         w sja||BHssauisnauoiiiiini9^g
                                                                                                                         '         uo.nsjedajd jaiuoisna
                                                                                                                                          :pioiionaoad
                                                                                      IsniAiaoss'sndTOooe'i)
                                                                                                siiunAjiujog^'a
                                                                                           ||unAJiJ3/6iiipEOlJlO                                    siiunjiaqiio ssauisnq Aep
                                                                                          uoneuodsuBJi :AHiNj                               -oi-fep aqi afeuEuj 01 Ajessaaau
                                                                                                                                        siJodBi BAauiai oj puE 'suoiioesueji
                                     ujBBJis LiEiu aqi
                                                                                                                                                 IEI3UBUIJ laqio pue 'siisoC^
                 Buuaiua ajojaq pieiJaicJ pue 'n3wa
                                                                                                                                         'siuaujaiBis BBBISOO laiuaoj sjasn
                 paAoidde UE OI ua^ei 'Jaiieuj aqi Aq
                   paiEdajP Apadoid eq oi sBumeuj
                                                                                                                                              SMOIIE jBUOIElSOd suoiioesuEJi

                                                                                                                                                                                       i
                                                                                                                                                s|B3|po!jad pue iiBiu ssauisnq
                     HE SBJiiibaj eajAJas leisod a q i
                                                                                                                                                 BuipjossJ JOJ uiaisfe Aiemub
                                                                                                                                           s.aoiAias lEjsod aqi s| lauoieisoj
                                                                                                          'Suiiieui
                                                                                aq) qiiM psieiDosse >|JOM aqi jo
                                                                              uoiijod E BuiUiiojJBd ;0) aEJumjoxs
                                                                                   ui sjaiuoisna oi sajej aOejsod
                                                                                peiuroosip siaijo leqi aAi|us3ui
                                                                               Buueqs-iiJOM E SI neui Bufijosajj
                                                                 ss3ooad AyiN3 iivifli ss3Nisna
                                                                                                                         Aq Biep apiADJd iou op suiaisAs BujiunoaDB aajAjag
                                                                                             saxaidiiiDO Bujsnoq lo
                                                                                                                            lEisod BOuis •A^Ej Aq paj[nbaj SB 'aojAjes Jo [IBUJ
                                                              'sBuipiinq aoiuo aBjei 'SIIBUJ Oujddoqs SE qons sajis
                                                                                                                          JO ssep qoea oi papqiJiiB isoa loaiipuj puE loajip
                                                            IBjsoduou JO SBjiiiiaBj aajAjas jEisod jaqip uj paiEaoi
                                           •/002 Ad                                                                       aqi siBaq IJEUI JO ssep qoea jaijiaqM Ou|U|iujaiap
                                                                    aq UEO sauiqoBiM 'saoiAJOs puB spnpojtl ||Eiaj
 U| SQOS puE 9002 Ad U| sritD JO siipne Bujionpuoo                                                                             Uj p|E 01 liodaj E SBJEdajd aojAjas p s o j aqi
                                                                jaqjo puE sduiEis aSeisod apiAoid leqi sauiqoBUJ
     aj.a^ 'Siaq^ aiEi aiqeiieA paijods pue 'spunjaj                                                                           'Aiienuuv s i s A i e u v PiJB ' e n u a i e y ' j s o o
                                                                     BujpUBA aotAJBS [Bisod pajjEjsun BJB sodSS
    GdV 'CLijuodaj puB Buiiuno33B iBpuBUjj Bu[puaA
                                                                                                                                •spjiuoo |EUja|U| aAipaija aAsq pue anuaAaj
'Aiunoas •saimiqEiunoaoE dmEis pue qsso oi paiE|3J                                          •spjiuoo iBUjaiut JO
                                                                                                                        Jiaqi aiEis AiaiejnooB s ^ j m \ m aouBjnssB ^lAOjd
    sanssi aoueiidmoD pue lOJiuoo leuiaiuj painiuapi        SMBIABl pue 'qSE3 pUE SdUiElS JO sjunoo 10 AllJBlUUd
                                                                                                                        01 sn saiqeua stqi •saouBjeq lunoooE puB siuaujAad
 sijun odV 0 L PUB CdSS 3W| ia SUpne gooS Ad "iQ            isisuoo siipnB assqi 'soas PUE 'sridO 'sOdV 'sodSS               jBUJQisno )o sisai jno L|BnojL|i anuaAai aianiEAa
                                                                JO siipne pnpitoD aw 'siseq |BUOIIE|OJ ApeaA e ug
                                          eajB aoiAias                                                                         os|B BM 'BOUEidaooB jiELU JO suo|iBAiBsqo pue
  Jjaqi iiiqiiw suoiieis puE 'saqauBjq 'saaijjo isod ne
                                                             SOaSPUB -sridO 'SQdV 'sOdSSJosupnv                           SMaiAai pjooaj qfinojqj sajnpaooid uoijeoiiim pue
   JO] sionpojd diiJBis puE sdiiiBis apiAOJd OS|E Aaqi                                                sajnpaoDid          BDUEldaOOB IIEUJ S,a3|AJBS lElSOd aqi BlBniEAB BM
    'SJapio Aauouj puE 'sionpoid :^jaiE|iqd 'Aiauoiieis        puE sapiiod injM aouBpxPSE ui pauasqo siuaisAs
                                                                                                                                          uoiioaiOJd anuaMJ puB 'sujajsAs
      BoiAjas |Eisod 'sdiuEis biqs pue BAJBOBJ SOQS              ojijoads aqi jo sisaj paionpuoo AuBjauaD aaiAjas
                                                                                                                           lUBiuAsd BBBISOP lEjoads 'sajnpaoojd UOUEOIJIJBA
                                                             IBisQd aqi laqi papnpuoo m 'siipna v y o goos AJ
                           'ssauisnq jo aoBid jo ajois                                                                         puB aoueidaooB iiem 'AiinqiSna pue spnoooe
                                                               jno JOj •SBjnpaoojd puE sai^iod paqsiiqEiss qiw
  B U| paiBOOi Aiiensn ajE sndO onqnd aqi oi sjapjo                                                                      jauiDisna oi paiEpj sanssi aouenduioo pue p i u o o
                                                           aouEpjoooE Ul EIEP amnioA puE 'anuoAaj 'isoo loaipo
AauQUi asiAias lEisod pue 'ssjiddns 'aSetsod Gunias                                                                     IBUiBWi pBiJiiuap! S f u m m 10 siipnE jno 'goOE Ad
                                                              D] sisa] {eaijsiieis Bjipnpjoo S| ao|Ajas letsod aqi
 puE ijBUJ BujidaooB SE qons saojAjas leisod ujeyao                                                                           BuunQ •aujii|DA u| sSumeuj ssaujsnq pasajd o|
                                                                 jaqiaqM auimiaiap oi siifHie (vuo) S|sA|eue pue
  apjAOJd Aaqi •aojAjas iBisod Bqi oi pBJiuoa japun                                                                      siaiieui ssauisnq pazuoqine JOJ s m m paqsiiqeisa
                                                                  'anuBAaj 'isoo pnpuoo aw 'pua sii[i o i 'ssaaajd
 'saiiiiioei paieiado pue pauMO-JopEJiuoo BJB sndD                                                                       aaiAtas jEisod a q i ' s j t u n A ; j i g i!sy)j ssauisng
                                                              Bu|>|BLU-a]Ej aqi p lusuodiuoo lUEUodujj UB SI II SE
                                                sapoo        aocAjas leisod aqi oi feopuD si eiep siqi lo AoeinoDe                       •suoiieis pue 'saqoueiq 'saotjjo isod
      dIZ ^!J3A pue 'sdujBis Anq 'saBB>|OBd djqs uea          aqi 'sisoa amqiJiie o] sppoiu IBOJISIIBIS pado|aAap        papBias A|iEoiiB|iBis gg je spjBo Jipaja pue :||QiABd
sjauiojsno ajaqAiv s>|so|>i Aipuaiij-iauJoisno aje sodV        seq aaiAjas jBisoj aqi '|IEUI JO ssEpqns puB ssep         !a:^Ajas jeiiEO puE ssxoq aoijjo tsod iiuauiabEUEiu
                                                                                                                                                                 aoueidasae [lem
                                                                                                             )o suoijBAiasqo pue swainsj pjOMj qBnojqi SBjnpaooid joi]BDi)|jaA
                                                                                                                 pue aoueidaaae iiBiu s,B0|Aias leisoj aqt ajBiiEAa sioiipnB gio
                                                  eiBp aainioA puE 'anuaABJ 'isoo jo sjsai iBotisijeis
     Buiianpuoo SJopaiioo eiep aoiMas lejsod pSAjasqasJOiipnE 910 '03^9 E|UI6JIA 'Bjnqsaai i
                                                               'ujapAg 6uipoou3 ajoujay aqi
                                                  pue 'luaujdinba uiajsAs uotioajap pjBZBq
                                                      -oiq paAGjdap jo aouBuajLiieuj 'ujajsAg
                                                  uojpaiaa pJBzeH-Gia uoipaipo leng aqi
                                                  qjlAA papjoosse spsodojd jsoo papniBAa
                                                     BM 'AjiBOjjjoadg •pojJad BuijJOdaj aqj 6u|
                                                  -jnp sjjpne pajeiaj-pejiuoo /_\. panssj B M
                                                                           SiOVaiNOO
                                                  dO SS3N3Ali33dd3-iS03 3Hi 9NIZIWIXVW
                                                         'suojppuaujujooaj pue sBuipuij jno
                              •spoo AJOIUBAUI    qjiM paajBe AjjBjauaB aoiAjag ppoy a m
      pue 'pBaqjaAQ 'joqEj pajjp 'iBijapuj )o      •AijOBdeo jaiiBjj azujjn jajpq oj speo] Bui
   AjiJEUJud Buipisuoo 'spoo pauojpenb uj       -jBpjjOsuoo Aq BOjAJBS JBUJOjsno BujjoBjje
  uojiiiuj eg pouJiB pasopsjp siipne asaqi        jnom!'^      sdjjj Bqj apuiLuija pjnoo BOjAjag
       jesodojd aouBjuaAuoo JOJ UOJIBUJLUJBI           jBjsoy    Bqi   •0S31l/^ 9M1 01 sjauiBjuoo
 uoiHluj L$ B miM Buop 'UoiiijLU 6S$ Ajapuj              d  l O  apeaojAjas   jo juauidjqs apjjd
-jxojddB Bujieioi siBsodoJd aoud jiBxij LUJJ)   -ojddBUj      am  Bujddop Aq pue 'sdui-punoJ
)0 SMajABJ BJBM sButABS PBJJUOO jBjJUajOd                20L    BuiAjIpOLU JO 'BU|AA3UBJ lou 'Buj
       uojiijUJ 01-$ 9m u| papnpuj osiv •sjsoo    -jBOUBo      Aq sjoBjjuoo BuijSjxa jo UJJB) am
   paujdOiaAap puB qojeasaj juapuadapuj        JBAO     uojiHUJ gLSAiapujjxojddEBAEs pjnoo
  JUBLUaBJBB BAjlBJBdOOO pUB 'lOBJjuooqns            aojAjag jejsoy aqi jaqj papnpuoo B M
 'JoqE[ 10 AijJBLUiJd Buijsisuoo 'sjsoo pauojj
  -sanb Uj UOJUJUJ Z$ UBqj BJOLU pasojosjp                                                •Aojiod
     JlpnE a q i 'UjajsAg Bujpoou^ ajoujay              Buissaoo-id jauieiuoo ( y i o ) peoj-aqi
 eqj JOJ uojjdo uoiyjLU g j e qjjM *|Bsodojd        -JBAO s.aojAjag lejsoy aiji qjiM pajjdiiioo     k
    Boud-paxjj LU.IJJ uoiHiuj t f $ B JO MBJABJ    luaujaBeueuj jaqpqM passasse osp a/v\
     B sapnjouj jBm uoiiijuj 0L$ JO SBUJABS           •S0S311AI siqdujaiAl pue oospuejy ueg
joEJjuoo jBiJuaiod B pajjijuap! a/y\ •UJBJSAS           am p BuipuiBjJG sdiJi-punoj AEMqBiq
  BujiunoooB ue pue saoipejd BuijBLuijsa             JO jaqujnu aqj Bupnpsj Aq Aauouj OAES
    paMBjAaj pUB 'jesodoJd uojieujuiiai s               oj aojAjag jBjsoy aqj JOJ jsjxa saiJjunj
   paiipnE 'spoo paunouj paijjjaA 'spauj             -joddo jaqjaqM pajeniBAa B M •>;jo/njByv
 -ssasse >JSJJ lejoueujj paujjojjad osp aM        jsjuao aoiAjas juaaidinb^ podsuBJX jiBiflj
                                                         'Buipaipo AjajBjnooe s| jj ejnsua oj ajouj
                                                               op p[noo aojAjag jejsoy aqj BAapq
                                                             jaqjjnj B M lUBjBojd aBajsoy o d QUI
                                                            puB sa3|A.ias jieuj pjjqAq qjiM anuaAaj
                                                        asBBJOui Ol jsjxa saujuniJoddo aAajpq a M
                                                                             'iBjjapuJ AUB AnEnjjiA
                                                          pue adeqs Aue aq oj IJBUJ BujSjiJaApB
                                                           6uiij|ujjad Aq aouaipne PSJEJ B ainj
                       •suoijBpuBUJUJOOBj jno qjjM       -dBo OJ Ajiunjjoddo sqi SJBJJEUJ p a j j p
          paajBe luaujaBeuEiAi •sBuntBUj saojAjas        sjajjo qojL|M '||BiA]ia>)jEiAj pazjujopno •
              puqAq JO) Ajpup jiujjad Bu||jeuj e Buj
      -LPjiqepa jauped saojAjas pjjqAq qoea jo                                sassaujsnq JO saujoq
      AjjjiqjSBaj aqi auiLxuajap juaujaBeueuj p q j      Jiaqj JE saBB>i3ed p dn ^o\d Aep-jxau
         papuaujujooaj osp B M 'saojAjas puqAq             aajj 'aujjuo ajnpaqos UBO sJBOiojsno
             aqj JO qoBB joj suojjoesuejj jsaj ajeja      *dn>tojy jBjjJBO UJJM pajdnoo 'JaiuiJd
        -uaB OJ JojoBJjuoo Ajjad-pjjqj e JO dnojB        pue j a p d u j o o ssaupnq JO auioq Jiam
           JUBLUBBBUB^ jBuuBqo pue ABGjGuqoai                Bujsn sjaqei JOJ Aed puE jujjd oj BJB
       Bujja^iJBt^ aqj se qons dnojB e qjjM >|JOA^          -ujopno sMoiie qoiqM 'diqg-N-MOjlO •
          'saoiAjas puqAq SBBBUELU qojq/Vi 'dnGJ6
          juaujsBBUBiAj jonpojy aqi jeqi papuaoi              •ujjojjad AjiBLLUQu pjnoM eojAjag
       -uiooBj a M pajjiujqns sjaujjed ssaujsnq         jBjsoy aqj >tJGM aqj jo jjed op (SJUBBB
           saojAjas puqAq aqj anuaABj aBejsod JG        jaijBUj JO) sjBjjeu.1 ajaqM '6uueqs>|jOM •
             uoijonpojd JO junoujB aqi ajepijeA p u
                                                                       :apnpu| a s a q i "suoijeAGuuj
              pjnoo aojAjag jEpoy aqj 'Aijeojjpadg
                                                            snojjBA qBnojqi BnuaAaj asaajouj puB
            'spaujaajBE BujJeqs-snuaAaj SBOIAJBS
                                                        BnjBA jBUJojsno JBIBBJB apjAOjd oi samuni
      pjjqAq LUOJJ anuaAaj >ioe4 oi ajenbapB jou
                                                         -joddo paijjiuap! SKJ aojAjag jBpoy a m
      ajBM spJiuoo jeqi punoj jjpns j n o 'aujpo
       BujjjBjA) podpis] pus 'spJBopoy umjujajy                    •saoud BjqBpjojjB p aouaujjojjad
           jsodjBM 'ajojSpjEO p o d p N :suJ6jBoJd            aiqBjojpajd 'aiqBjjaj ajouj pue 'ssaooe
                saojAjas PjjqAq aajqj paMaiAaj B M        puE asn JO Bsea paAOjdLui 'Ajujin jonpojd
                                                            pasBBJouj SB pauijap sj anjBA jaujopnQ
                                               •SUOjl
                                                        •>|jOAAjBu AjaAjpp ButA'VGjB aq) pue aoiAjas
         -oesusjj asaqi UIOJJ anuaAaj aBejsod ip
                                                             jBSjaAjun BupuBUjj anuijuoo oj anuaAaj
       saAjaoaj o s p aojAjag jBpoy a q i •aojAjag
                                                           pue aujnjGA ijeuj aseajoui lyM s i q i saojA
Ul    jEpoy aqi qjjM sJapJO asoqi UJOJJ snuaAaj
                                                         -jas puB sjonpojd ajoo uj anjBA jaaiopno
               uojjonpojd BLii JO aBBjuaojBd uodn
                                                            ajoLu apaja oj suejd jj -anjeA jaujopno
       -paaj6e ue ajeqs pue 'sjapjo .sjaujojsno
                                                            qBnojqj qjMOjB Bupapoj Sj anuBAaj aje
UJ      JO uoijonpojd AdGO-pjeq aqj apjAOJd p q i
                                                             -jauaB oj ABBJBJJS s.aojAjag jepoy a q i
>            sapedujoo jaupBd qijM speujaajBe
UJ        Buueqs-anuaAaj seq aoiAjag jBjsoy aqj               •Aouapijja j a p a j B qijM BUGJB aojAjas
         'aojAjas pjjqAq qoea JOJ -aojAjag jEjsoy        jaiuojsno Ajijenb-uBju apiAOjd p n u j aojA
cc         sqj Aq AJSAjiap JOJ UEUJ Adoo-pjEq m m          -jag jBjSGy aqi 'os Bupp u| •sjaujojsno
UJ         jjBuj paiejaua6-A||BOjUOjjoa|a BUjqujoo        Sll OJ anjBA jajeajB BujpjAOjd pue 'sjsoo
      saoiAjas [iBUJ pjjqAy •saoiA.ias IIBIAJ puqAj-i        6ui||0JjuGD 'saoiAJSs aJoo Bupijujeajis
GC                                                              aijqM anuBAaj BuiSBajouj Sj aojAjag
UJ          •SUOjJOeSUBJJ jBpUEUf) OJ BujJBjaj S>)SU
                                                               lejsod aqi Bujoej aBuaipqo JOIBLU V
      azjujiujUJ Ol sjOJiuoo jBUjapj BuiuamBuajjs
z      pue lanuaABJ HE Buipodaj puB 'Buipjooaj                            3nN3A3a3iVa3N39
UJ
o
UJ
cc
</)
                         'Erai]EUJ-||SS sa qons siiiauinoop pue 'siaqei 'satK^suis oiuo aSetsod iu|Jd ueo SJawoisno
                                                                                         OOOO
        n-151^66000                    I 11 I Ml
         9 0 . > i ady                 U U U*!*                                      ssivisasiiNn
             9Z00Z
         3a*N019NIHSWM                         INHOWy
          aiud
     3ayisod 'S'n
                                                        aqi jaAO SJOJJUOO SSBOOE pue Ajunosg
                                                      •spjooaj Ojuojjoaja pue jBOjsAqd .sjapjA
                                                      -ojd 01 ssaooe JOJ sjuaujejjnbaj ajepdn
                                                         pue 'sjsanbaj punjaj BUIMBJABJ uaqM
                                                         6uj|dujes jBOjpipjs sjj aAOjdan ppoa
                                                      lAiid 9Ml 'jaAaAAGH iiejsAo juapjjja pue
                                                      aAijoajja SBM JI p q i punoj puB ssaoojd
                   •suojjBpuaLuuiOOSj jno           AABiAaj punjaj aBeisod Od ^Ml P^llPi^B B M
 miM paajBB juauJaBsLiGi'^ junoooe aqj
  JOJ pjed Apnojy^jd SEM paujasjnqujjej              •LUBjBojd aSeisoy o y aqi saBeueui aojjjo                        i
B jaqjaqM auiujjapp jouueo )j 'loajjoo Sj             (^j_d) luaujaBeuei/j ABojouqoai aBejsoy
 lunooJB punjaj papanbaj E pue pesojO                   eojAjag jepoy a q i sjaneuj-jias se qons
    Sj pnoooB JBUJOjsno B pq] AJIJBA ueo                sjuaujnoop puE 'Sjaqei 'sadOjaAua ojuo
 ujapAg Bu|>|OBJi pue Bujjunooov iopvi               aBeisod pud ueo sjaujoisno -sjajndujoo
     jBUOjiEN aoiAjag pisod eqi qSnoqJie             puosjad UJOJJ aBEpod jujjd oj sjaiuojsno
     p m puno) osjE BM •apnbapeuj ajaM                  MOjie p q j sjopuaA pjojaoiujoo Aq pado
       jBpiAGjd BBBjsoy Od QUO p ejOjpui               -laAap sjonpojd JOJ aojAjag lejsoy aqj )0
    paiEp-uou JO uojpnjjSBp pue 86ejop                 >)JBUjapBJi E SI afepoy Od aSeisod ckl
     EL IQOOZ'ieipJeH-SOOZ'lJaqopO
                                                                                  'SaaAoiduja p
                                                  uoipojjijou aAijoBjja oj pajsjaj suEtd aueo
                                                     -ujnq iBjuauiaiddns puB syiA|3| sm Jad
                                                    suoijoB BjBjjdojddB >iooj aojAjag jBpoy
                                                      aqi jEqi papnjouoo B M 'saaAoidUJa jo
                                                  spuBsnom puB sajijipej aoiAjgg p p o y jo
                                                 spajpunq joedtuj A|iueoij|u6)S oj pajDjpajd
                                                       SBM eujjjB» ajaqM 'BpjJOjy qjJGN pue
                                                 'jddjssissi^Ai 'BuepinG"! 'eujeqejv :sjajjpip
                                                                                                                      •sanssi ujBjBojd uoipsuBd
                                                   papajje jnoj aqj Uj iiepuei apeuj euuie>i
                                                                                                       -UJOO ,sja>|joM pue Luniujajd aouejnsui
                                                     aueoujnH aJOjaq saaAo|duia pjenBajes
                                                                                                       qijBaq Buissajppe pue Apjes aaAo|dujB
                                                    GJ suojpe s.aoiAjag jepoy aqj paA^ajAaj
                                                                                                      Buunsua SE qons 'sanssj aoBpsjjOM pue
                                                    aM 'ijoua aojoj >isei 3 i o y aqj jo jjed sy
Q                                                                                                          BOJoj>)joAA BAjoseJ OJ Aij[iqe s.aojAjag
Ul                                                    •Bjiy aueoujny oj p a p p j >IJOM pajonp            p p o d aqi passasse osje a!\/^ BUJJIBNH
CO                                                -uoo o s p 9 M 'anssj sjqi uo ^JOM JG Apoq        auBOjJjnn JO pBduii a m Bujpnpui 'jajsesjp
                                                 aAjsuajxa ue papnpuoo oqM sjGpBjpaAUj              (0 saaiij Bujjnp aojAjag P p o y aqi jo ssau
O                                                   pue sjojjpne jo aojoj >fsej e paqsiiqejsa           -aAjjoBjja aqi paM3|Aej AjaAjSuajxa B M
                                                       ueqj a M 'BUjJie>i auBOjjjn|-| GJ 6u|)B|aj
                                                                                                                                        •Ajjiiqixaij
O                                                   suGjpjado pue sassaoojd juaujajnoojd
                                                                                                        Bjnsse OJ juaujajdujGO BujBeueuj pue
u_                                                     pue jEioueuij jo jqBjSjBAO apjjdojdde
                                                                                                    •uojiBsuadujoo paseq-ia>jjeuj Buiujejujeuj
cc                                                      Bujjnsse qiiM jBjauao sjopedsu] aqi
                                                                                                       pue BujqsiiQBpa 'juapj BujBeueuj pue
UJ                                                      pB>jSBi 3iOd 9M1 'uoijejoqeipo pajBi
                                                                                                       BujdoiaAap 'saaAojduja BujBeBua :saj6
                                                        aqj Joy ' s g i o iP Aq paiujojjad >|JOM
     UJ                                                                                                -aiB4s aojnosaj ueujnq (eojiiJO jnoj uo
o                                                      Ajunoes papiaj uo UOIJBUJJOJUI sajsqs
                                                                                                         Bujsnooj SI 11 •aojoj>|jGM aqi ajBAijouj
H cc                                                 qOjqM 'Bjqeipunoy Aijjnoag puBjBUJOH
                                                                                                      pue BBBBUB G I suejd aoiAuag lejsoy aqj
CO                                                (3!0d) AouBjoyjg puB AJIJBB]UJ UO (jounoo
                                                                                                         'ajnjjno paseq-aouBujjojjad pasnooj
                                                       s,iuBpjsajy aqi p jaqtuauj B OS|B BJE
o                                                                                                          -JBUiopno E qjjM sjjnsaj aAajqoe o i
                               ElEp |B|3UEU|)
                                                     BM •suojiBBjisBAUj jjB|Aj snojaBuBQ pue
<    O                  leisodpaiipneBuisn         (sdlAjgi) suBjd juaujaBBUBiAl AouaBjaujg                                        •SBUIAES JSOO
I                 'ujj|) luapuadapuj ucAq          pajBjBaiuj OJ BujjBjaj BuiufBJj p u a j p puB       Uj uoijjiuj 00Z$ ueqi aJOUJ JG papAjnba
  Q            pa|3npu03 Sj luaiussassE          Bojoy >|SBi Aiijnoag IJE;^ aqj ui aiBdioijjed           am Sl qoiqM '(ydl) AiiAijonpojd JOjoej
t UJ            a q i 'sisoa uoiiEpodsuEii         aM 'Aijjnoas aojAjag [epod jo ijoddns u(
                puB 'saiii|ioei 'luamdintia                                                           lejoj Uj qjMOjB jo JEBA aAijnoasuGO qjxjs
5 CO
  <              'joqBi Bpnjoui saojnosatj                                                UJBBJIS
                                                                                                    pajuepaoajdun ue qjiM 'BU|MS pjBMdn ue
                    UOjlBUOdSUBJl JO apoLu                                                             uo pBnujjuQD AouajODja 'ijoday lenuuy
com                                              IjBUJ aqi )0 AjjjBajuj aqj joajojd jaqpnj ueo
                    puB 'uoiieiedaid jaijem                                                              SdSn 5003 sij Uj paujjino s v •saBuaj
     UJ            JO jaAai '9Z|S 'tqSiaw joj    ao^Ajeg jBjsod sqi Moq UMoqs BABM sjipne
                                                        jno 'saji!|iqGJBU|nA Aa'>| uo Buisnooj Ag        -pqo jofeuj aujos BUJOBJ aitdsap jeaA
               paisnfpE BLuniOA ipm puE
CO   o               'SJUIOd AlBAI|3p JO BdAj    •ujajsAs ijBUJ s.uojjBu aqi ajnoss AiBAjioajja      pel JBaA aAjpnpojd e peq aojAjag iBjsoy
                pue jaqiiinu aqj sapnpui         ejoLu OJ SBAjjBjjiuj BuidojaABp uo sjSBqduJs           8L(i -AiiAjjonpojd puB aouBujjojjad uo
UJ
               peoppOM pasn saojipsaj            paAABUBJ B OJ pa[ sjuappuj a s a q i 'AjaAiiap       Bu|zt|e}jdeo oi auopAa>f spOjAjag p j s o y
OC                  01 peoi>|JDAA eqi ]o ojiBi
                                                      jiBLU pajOBdujj AjasjBApB JBqi sjapBSjp         aqj Sj aojoj>|JOM pajOjjja ue Bujuiejupuj
UI   cc               BSB(dJL)Ai|A|pnpoJd                                                             Aq saojnosBJ iGjideo ueujnq 6u!Z|UJixe[Aj
>                        JopEd|Eioisaji)ap           apBUJ-UBUJ pue p j n p u qjoq paoBj seq
UJ^
     o                    BDiAjag jeisod a q i     aojAjag [eisod aqi 'Ajopiq 6uo| sjj Bujjng        synnno a3S\/a-30NviAiaody3d
                        a3N(d3addi                                                a3isvsia do              aasnood-agiAioisno v
x£                                                S3Wli Nl SS3N3Ali33dd3 33IAy3S IViSOd                    Hii/iA snnsBa 3A3IHOV
OUJ
UJ
cc
CO
                                                                                                                                         ssejQuoo 01 iiodGH lenuuBiuias l i'l
                                                                                                           •Buoqdajai aji lo 'jaujatui
  aui 'uiiDi asiAiai; icisod v fiutsr srajppe jiaqi BfliiBqoo; sistunisno jo) AEM B saptAOjd SS3:IOJ3 rsamDV P oRiieun iBtioipfj a t n
                           tjjMifi nt (uajj^mom •*! TAWV: m w " " ' '"o (f*i M » M
       ;|>^ ssajppyfo aBuBifj leioijj^o                                                     ^vEam
           •jeaA snoiAajd aLjj ui pojjad aujes
    aqi oj pajedujoo 'pajduj Apeau sapoo                                                                    •sajiHpEj
   yiZ papajje-auBOjJjnq OJOJJ passaoojd                             Bujssaoojd        JJBUJ   Ajejodujaj paqsjiqeis^ •
SVOO JO jaqujnu aqj 'goo2 '5L jaqujeAON
                                                                                                            •E9JB SUBBMO
   01 I jsqujajdag UJOJJ paseajoui s v o o
                                                                     MBM aqi JOJ pauipap \ ^ ^ pjepueig jo
  JO sBdAj j|B joj pBOj>jjoM aqj 'Sjaujojsno
                                                                    aouEjdaooB aqj uo oBjeqiua UB paoeid •
    uojjijLU auo ueqj BJGUJ p juaujaoeidsjp
        ailj JO jinsaj e sy •jseoo Jino aqj jiq                              •sails AouaBujiuoo oi suojpjado
   Buuie>| aueoijjni-) 'ssaoojd siqi jo AABjAaj                            Bujssaoojd |IBIA} ssejo-lSJiy paAOi/\j •
    pjjuoo uGjjeoiidde UB Bujjonpuoo BJBM
    BM\ ajiqM auoqdapj aqj JO 'jaujajuj aqj                                    ujjGp aqi JO aouBApe u] ijeuj
 'UJJOJ aoiAjag lejsoy B Bujsn ssajppB jpqj                           ssaoojd oj >)JOM puoiJippB paujjojJOd •
   aBueqo oj sjaujojsno JOJ ABM e sapjAOjd
         ssaoojd (voo) ssajppv JO sBueqo                                                              •suejd
jeuojjefvj a q i -ssajpp\/jo aBuBqQ jBuoijBfsi                         suoijEjado JO Ajjnuijuoo papaujaiduui •                                                                  i
                                   •Ipjpuej                                         :aojAjag jepod aqj 'auBojunq
 apeuj eujjje>| auEOjjjny jajje saaAojduja                              am Aq papedLUj suoijBJado Buissaoojd
  JOJ junoooe pue apooj oj U9>(GJ suoijoe                               tjELU uieiujBU-i 01 uoiBaj p s o o j p o aqi
aojAjag pjsoy BujjEnpAa Ajjuajjno aje B M                               Uj suoijBJado BuissBOOJd JIBLU paqsjiqBj
                                                                          -saaj A|>|Ojnb puB '>fj0MiBU Buissaoojd
            •ujjojs aqi Aq paoBidSjp SJB                                 jjBUJ aqj OJ BBBUJBP passasse 'IJBUJ aqj
-ujojsno JO) SLUJOJ ssBJppv-Jo-aBuEMO                                pBAOLu aoiAjag pjsod aqi 'sBouEisLunoJio
       OOO'OOQ UBqj BJOUJ passBOOJy •                                    linoiuip A|jjBU|pjoEjjxa japun 'jaqpny
                                                                        Bujjnsua pue 'auoz aueojJJnq aqj apjsino
                       jno 'saajjiaj aoiAjag p p o y jou 'pej Uj
                                                                             sajis AouaBujiUGO Bujqsiiqejsa 'suoij
I-                   'ajaw oqw SjenpiAipuj oz JOj UOIHJUJ L'8$
                                                                         -BOjunujujoo jeujapj jo uoijeuipjooo aqj
                        ao|Ajag jBjsoy aqj pajjiq lAjyo leqj puB
                                                                        BujAOjduji apnjouj a s a q i •SJBJSBSJP ajnjnj
                      luaujaAOjduii paau SJOJJUOO IBUJBJUI jaqj
                                                                        oj asuodsaj puB ssaiipajBdajd s.BoiAjag
                     pau|LUjajap puB (lAjyo) luau.ia6BUEiAj jau
                                                                             jejsoy aqj BAOjdLui pinoo jeqj sanssj
                   -uosjBy JO eoyjo eqi qijM psiBUjpjooo B M
                                                                        jBjaAas pajjjiuspj OSJE aN\ •sauBOjjjnq am
                                                                        JG qjBUjJBjje ajBjioaLULUj BLIJ UJ suoiJBJado
                                                        •5002 Ad
                            Uj uoiijiq g^j$ psiBpj qoiqAft 'sujniLu        BujSSBooid jjBLLi Buiqsijqejsaaj pUB 6uj
                      -BJd asoqj JOJ ppd sjunouje jo AoBjnooB                -UjEjujBuj JO qo! BpEpuauJUJoa e pjp
                       aqj puB 'sjoAjAjns puB SBBJIJBJ oOO't't't'         aojAjag p j s o y aqj papnpuoo B M anqM
                   jnoqB JOJ pjEd SLuniLuajd aouEjnsui qjpeq
                                                                                                  •dnuBajo pue sjuauj
                       JO ajBqs s.aoiAjag |B)sod aqj jo LJOJJBJPI
                                                                       -ssasse jepaujuojiAua JOJ SJSOO passasse
                    -uiujpe JBAO sjojpoo jEUJBiuj )o AoEnbapB
                                                                            puB ls>iJ0Mjau sojjsjBoj uoijEiJodsueJi
                        aqi psMajABJ B M 'luaujaBeuBLu aotAjag
                                                                           puB 6u|ssaoojd ||BLU 'SBJIHJOEJ [iiaqsiiqej
     Q               jBjsoy Aq papiAOJd uoijeujjojui uo Bujjoy
                                                                       -sasj puB SBBBLUBP passassE :ssaAo|duja
     UJ            •siuejinuuY JOj aouBjnsuj qiiBaq jaAojdiu^
                                                                           papjenBajBS :dlAI3l aqi qijAfl juapisuoo
     CO
                                              •pajjipapjBMSUOjj            suoipe >|OGi isauBOjjjnq snojAajd UJOJJ
     D                                                                   paujEB) suossai uo paijaj aoiAjag p p o y
                       -jpuoo aqi lie uo suojioe BAJIOBJJOO ^jooi
     O               paujaBeuBiA] 'pajjooooaj pBq uojpadsui              a q i •sassaooJd apjBaiuj pue 'sajnseauj
     o              AjajBS e Ul paijiiuap} ApnoiAaJd suojjipuoo                BAjioBiojd luauiajduj! 'spapiouj aBe
     u.                                                                      -UEUJ j a j p q OJ sajnpaooJd padopAap
                          snopjBzeq auios p q i paujLUJajap pue
     OC                  eaie >|OGp Bujpeoj aqi uj pjezeq M B U B           ssaupajBdajy AouaBjaojg jo aoijjo sjj
     UJ                    punoj BM 'UGijjppe Uj •Sj'gl VHSO PUE             •saouBisLunoJjo jjnojj)ip ApEUipJoeJixa
                   spapjOOB 8002 Ad ^Ml P JSGUJ JOJ sasnEO                    japun Ejjy puB EUjJie>| sauEOiJjniq oj
     OUJ              p o j aqi pajuaujnoop pue pajjijuapj Aaqi         papuodsBj AjBAijoajja pue Ajjjojnb aojAjag
     HOC                  jeqi papnpuoo a M 'Aliipej aqi uj uajjo            jEjsoy am JBqj papnjouoo BAA 'ipjaAO
     COD                 jsouj pajjnooo jeqj (sjsi) sassaum pue
                                                                                                             •sjauJOj
                    sBjjnlui (VHSO) uoijejjsjuiujpv qjieaH puE
                                                                         -sno puB saBAojduja qjoq o j uoipauojui
     8^                  AjajBg jEuoijednooo pue sjuappoe JOJ
                                                                             lUBUjpad apiAOJd A|>|oinb oi sajjsqaM
     <                  sLUBjBojd uoijuBAajd pajuaujaidLUj pue
              o                                                            jauejjui puE jBLuajui aqj qjoq pajjipoui
                     SBsnBO jooJ pBDijuapj OQSd sBxai qjJOfsj
     X                                                                    pUE LlOjPpjjBA pJBO JjpaJO JO Bsn aiji UG
              Q             aqj qojMM oj juajxa aqj pawaiAaj aM
              UJ                                                          jBAieM B Bujjuaujaidujj Aq sanssj Jauioj
                                                   •SBAijoalqo          -sno passajppe juaujpBdap ABopuqoai
                    aouBLUJojjad BujAajqoe uo soiejBojd uoji           uoipLujojuj sojAjag jBjsoy aqj 'uojippE u|
                     -Bsuadujoo pue juauidopAop aaAojduia
                                                                        •sjBjsesip ajnjnj oj Bujpuodsaj uj SJEJOUJO
                      6u|snoGj aiiqM 'juaujuojiAua aoeid^^JOM
                                                                       aojAJBg [Bjsod OJ aouspinB pBAOjdLU) apfA
                      eqj pue Ajajes qjoq aAOJdujj oj pa^iJOM
                                                                           -ojd OJ 'y)M3| aqj SB qons 'AojjOd pLUJOj
                    seq BOiAjag pisoy a q i 'Aiaiss aaAojdiu^
                                                                        e ojui sajniDBOojd BSaqj ajEJodjooui Aaqj
                                            'SUOijepuauJLUOoaj               jeqj Bjnsua oj aoiAjag jEjsod am qiiw
                                                                         BujjeUJpjOOO BJB BM "jauUBLU ApUJl} 6 Uj
     si
     UJ
                   JOG o) BAjsuodsaJ SG spauJLuoo jjaqj paja
                                                                         jtBLU jjaqi pBAtaoBJ sjaujojsno paoB|dSjp
              cc     -pjsuoo aM ' p a p p se suo|ppuaujujooaj
                   am MijAA paajBBSjp luaujaBeueuJ qBnoqjjv                 Bjnsua o j SBjnpaoojd asaqj passassE
                                                                          af\l\ sjBUJOjsno pajoajjB o j JJELU joajjpej
     xoc                                            •SBjJJIJOEJ BOjA    OJ SBjnpaoojd MBU Bujpajo Aq spuo sjqj
                     -jeg p p o y je AijiiqeijBAG jBMod dn->|OBq               OJ papuodsBj siEio!))o aowviag jBisod
     OUI
     •    •
     >•
     o
     UJ
     !5
     CC
     CO
              •90|ftjag|Bisod3ifioi            01 Bsooqo ppoo ssaujsnq aqi asneoaq
paBjBqo dOMO saej aAjjejiSjUjUJptf           aojAjag jejsoy aqi JO) SI H se Ojjeujaiqojd
                                            se aq p u pinoA^ sjqi 'ssauisnq a)e/\iJd e u|
   5002            0002
                                                              •spoo uoiiesuadujGO pue JBO
                                             -ipauj jBjo] B.aoiAjag jejsoy aqj jo juaojad
                                            BAjj inoqE juasBjdBJ saaj a s a i j i '(aseajouj
                                            juaojad ge) SOOS ui uoimui -f f $ o j 0002 Uj
                                             uojjiiLu ££$ LUOJJ paseajOui aoiAJag jBjsoy
                                             aqi OJ paBjeqo yoAAO saaj aAijBJiSjUjujpe
                                              •aujji BujES aqi i v •JaAed paBJBi aqi aq G)
                                                l^anujjuoo puE sasBO aoJoj:>iJOM jejapaj
                                                   jBjGj JO juaojad gt? jnoqe pajuasajdaj
                                                    BOjAjag lepoy a q i •go02 ui (yOAAO)
                                                   SLUBJBojy uoiiBSuadujGO ,sja:>fJOM Jo
                                              aojjjo (snoa) s.joqeq jo juaujjjedaa aqj
                                                Ul juBdiojjJGd paBjBj aqj aojAjag leisoy
                                                   aqj apEui jeqi s j o p e j AjeujjJd aqj aje
                                              paujJojjad >IJOM JG ajnjeu pue aojGj>iJOAA
                                                    I p n BujuieBjBq aqj JG azjs jaaqs a q i
   UOJIJIUJ
                                                                          •(luaojad 92
                                                ApjEUJjxojddB) 5002 Ul uoiiijUJ 01^8$ oj
                                                  0002 Uj uojHiLU 999$ LUOJJ pesGaJoui
                                              BABq sABjino qsBO 'SJESA Z JSEd SLJJ JBAO
              •sjaijiOM pajnfuj JOJ         sasuadxa uoijESuadLLioo ,sJa>|JOA^ jGnuus
   UOjJESUBdUJOO ,Eja>tIOM JD JSOO          paonpBj iBL|i s d a p BAjjjsod UB>|B} sBq BOJA
                                            -jag p j s o y aqj qBnomiv •sja^iJOM pajnfuj
   SOOS            0002                       JOJ sasuadxa Liojpsuadujoo ,sJa^lJOA^ sj
                                            aojAjag jEpod aqi Bujiosduji p o o JUBOUJU
                                            -BIS V siuBjBojd uoiiBsuadiuoo ,SJS)/JO/VI
                                               •saouBjajjjp AUG BAJOSBJ PUG lAjdO ^104
                                 -OOS            podaj uoijdaoxB aqj JO]JUOUJ Ajasop o j
                                            SjOJiuoo jjBMi BOUBqua JJIM puB Bujpui) a m
                                            )o l u a p i sqi LiiiAA BBJBE pip Aaqj 'pajjijLiapi
                                             aoLiBpjOAB )soo a.injnj aqj qjjM BBJBG JOU
                                      OOf
                                            PIP JUBLUBBBUBLU LjBnoqijv SJEBA OL Jxau
                                                aqi JBAO uojjjiuj g^g$ jo aouepjOAe jsoo
                                              Bjnjnj pajBUJjjsa UB JOJ SjBnpjAjpui asoqi
                                 -009        JOJ Buiiijq panuijuoosip lAidO 'Alpuoijjppv
                                                                                                  i
                                                  •junoLUB piedjaAO aqi JOJ Bujiyq g0O2
                                             japLUBAoisj BLfj pajipBJo [Ajyo 'Ijnsej B s v
                                 -008                                       •spnpjAjpui
  UO!||ILU
                                             asom JOJ pied sjijeuaq qi|BBL| jo uoijEJnp
   9L8S                                         sBBjaAB aqi SBM qojqw 'goQg jsnBnv
                                                  qBnojqj f 6 6 l sunp UJOJJ sjuBLuAad
                                 -"OOOl-       jEnuuB aBejBAB sjuasajdaj uoijB|no|BO
                                                                         •Ajnfuj p a j d a o o B - d O M O ue j o u n s a j e S B
t-T                                                                         Apoq a q j j o s u o t j o u n j j o ' S U B B J O ' s j a q
                                                                       -Luauj u j B i j a o j o a s n j o ssoj JO SSGJ iBijjBd
                                                                              a q j JOJ l u a u j j p d u j i a q i j o AjuaAas a q j
                                                                           UO p a s e q saaAojduja o j aiqBABd sj u o i j
                                                                       -BSuaduJoo pJBMB B i n p a L p s ' e a j v oijjOGd
                                                                             e q j u\ spjBMB ajnpaqos JOJ 0 0 0 ' 0 t ' 2 $
                                                                              p o q e p a B j e q o j a p u n puB 0 0 0 * 0 9 2 $
                                                                          AjJBBU paBjeqojaAG seA^ aoiAjag jGjsoy
                                                                       9 m ' t ' 0 0 2 JeaA >|oeqa6jBq3 ui jBqj jaaloJd
                                                                          0] a|dLUBS jeojjsijBjs e p a s n j j o d a J a q i
                                                                                                       •ujBJBoJd
                                                                             spjEMG ajnpaqos sn sAOJdLUi o j p a u j
                                                                          - a B e u e u j yOAAO o j s u o j j B p u a u j u j G o a j
o                                                                        papnjOUi j e q i iJOdaj panssj ApnoiAaJd e
                                         •aojAjag (Bjsoy aqi
UJ                                                                       OJ j u a u j a j d d n s B p a n s s j ar^ 'AjieuDjjippv
          JGj ejqBjSAOOBJun (JUIIOUJB juaujAad ajeo
if)      -jjdnp aqj jo juaojad BAJJ poqe) 000'9Z LS
D                                                                         yOAAO BujPjxa a m UJOJJ aojAjag jEjsoy
            BujjBpuaj 'sjuaujAed Bjeoydnp ssaoojd                        a q j a p j e d a s o i p a p a a u a q p p o M UOJJOB
O            OJ aBJBqo Aaqj sBaj aAiiGJjstujLupB aqi                   aAjjGjSjBai ' o s j v • p a o n p a j s j e s j i j a u a q uotj
o         JOJ SBIOUBBB asjnqujjBJ o] pajinbaj jou Sj                    -esuadujGO ,sja>iJOM jj suoiun BBAojdLua
U.          nOQ ' f 002 MBnojqi 1.002 SAd Jo pouad
    •t                                                                   JGIBUJ j n o j spojAJsg p j s o y e q j Aq a o u e j
CC          Bu||[|q snojAajd aqj UIOJJ spaLuAed ajeo                      -Sjsaj [eijuajGd a p n p u i LUBjBojd y o A A O
UJ           -jidnp u] uOjijjLU LS usm BJOLU pauijuapi                          juajjno aqi BupeidBj oj saBuajpqo
s           aojAjag pjsoy eqj 'goos Ad JO SJapenb
OUJ          OMJ jSJjj aqj Bujjna '9002 qoJBiAl jo SB                            •spjpGO AjijjQBjunoooB puB 'snjBp
l-DC           y O M O '^Q eaiAJag p j s o y am 01 >i06q                    Aouapuadap pue SJILUJJ uojiBsuadujoo
tOD         pajjpajo SBM 000'Z25$ M^IM/^ Jo 'sjuauj                      •sjuaaiajijaj Ajojepueuj 'suoijdo jnoAnq
3 H            -Aed jBoipauj ajeotjdnp u| UGIUJUJ q-£,%                          'uGjjoaps uepjsAqd 'SJQJEJJSJUJLUPE
o=J                 ueqj ajGLu pajBAOOSjp seq aojAjag                     Aped-pJiqj aojAjag jEisod pue saaj sAij
             p j s o y am '8002 A p r uj ueBaq jj aouig                       -BjpiujujpE dOAAO paonpaj 'pouad
<3                                                                     BuijieM ABp-8 e pue uo|jeu|Lui|B ( y o o ) Aed
                          •SBLuaqos Bujijiq juappnej)                    JO uojjenujpoo jo SBBJB aqj uj aq pjnoM
l=UJ       AjjBijuajod Ajjjuapj d p q oj padopAap aM                     sBu|Aes Bsaqi •LUBjBojd uojiEsuadujoo
           aseqejEp B sasn aAjjBjjiui s t q i •goos '82                  pja>jjOM UMO Sll pEq aoiAjag jEpoy am
           AjBmqaj qBnojqj '0002 'L AjenuBr UJOJJ                         Jj jnooo A[a>jii JSOLU pinoM SBUJABS 'apjs
           dOAftO OJ sBuiiijq iBoipauj uj UOJUJLU eZL$                       eAijjSOd aqi uo jaqj punoj MBIABJ j n o




TSW
-BAS
                    UBm 3J0UJ JO MBjABJ G Uj pajinSBJ
->UJ            aojAjag jBpoy aqj Aq paj aAijEiijUj u y                                              •auo Aijsoo
=2o                                                                         ssaj e qjjM 'dOMO "lOQ SMl Aq pajepj
^z                                                   •SJUBLUAEd        -ujLupB Ajjuajjno 'UIBJBOJP uoipsuadLuoo
UJ5      pjBME a i n p a q o s paAjaoaj o q M seaAoidLua                   ,sja>|jOM juajjno sji aoBjdaj pjnoo BOJA
         GBJV ojjioey a m JO l u a o j a d j n o j p j B d j a p u n        -jag jejsoy aqj jaqjaqM pajaniEAa B M
             p u e -jOAO yoAAO j e q j a p o i p u i saBJBqo
             a s a q i 'jaqiJny -BaJV o j j p B y a q i ui f 0 0 2                         noa 9I-110111 spujq pqi MBJ




lEVE
                                                                           OJ anp Aijjjqjxaij aAeq p u saop aoiAjag




FOR
             jeaA >jOEqa6JBqo uj saaAoiduja aojAjag
xcc      p p o y o j p i e d uojiijoi 9^02$ SMl JO l u a o j a d       jejsoy a q i 'sassaujsnq ajeAijd a>ii|un 'JBAB
OUJ            2 " i j n o q B juBSBJdBJ saBjBqoJBAO a q i                 -Moj-i -sjapiAOJd aAjpjjSjUiujpe aBueqo
<Q-
:>^
o
UJ
H
<
QC
CO
                                                                                                   :.b<IJUJUJ U| { J U U d U IKIILIUIlIIUlit^ I t j | .
                                  •ajnoj
JBjJJBO qoea oj pauBisse sassajppe Aja
-Aipp eiqissod jo Jaqujnu aqj BuijepjieA •
               •sjonpoJd ujajsAg uojieuj
  -joju) ssBJppv Uj pBpnpuj sassajppe
          AjBAjpp eiqissod jp BuiAjjjuapi •
                                    :epn|3Uj
SA^eiABj jaejjs e q i 'ejaidujoo pue JOBJJOO
  Sl uojjeujjojuj ssajppB ajnsua oj sijnsaj
MSjABJ jBBJjs Ajiienb giAjv Jo paLuaBBueui
    spoiAjag ppoy aqj passasse aM p u i                          •suoijepjiosuoo asaqi MJIM pap
  -SIQ apuejo Old 'eaJV paMqjnog eqi u|             -joossB suoipojjdLUj aoiAJBs aqi apnjBAa
                                 •aojAjag jejsoy       IIJM BM 'SMBIABJ BSaqi JO JJBd SV 't'OOS
     aqi OJ Ajpoo BJOUJ SJ qo|^A^ •Buissaoojd          Ad Uj paiuBLuaiduji uojiBpi|OSUOo yiAjV
     jenuEUj sejpbaj juaujdinba papaiojne           UB LUOJJ paABiqOE BJaM ao|Ajas JG AouajO
uo passBooJd aq jouueo jeqj jieiAi *gya uj           -ijja u| sjuBLUBAOjdLUj papafoJd jaLjjaqM
 IjBLU ssBOOJd 01 pasn SLUBjBoJd Buijjos Uj          ssassB oj UEjd aM 'uoijippB u| '9002 Ad
                                                         ut uojjBjuaujBjdaji JOJ paAOJdde syiAjv
    pajnjdeo s| gi/vv ui UOIPUJJOJUJ ssajppv
                                                       papaias jo joediuj pue uouBOUipn! am
         •uoijBLUOjnB qBnojqi AJBAJIBP puB But
                                                    auimexa oj sijpnB jo sauas B Buijonpuoo
   -ssaooJd |BLU JO AouBiojjja aqj saouequa
                                                         BJE BM 'jJojjB Siqj JO ijoddns u| -sjeaA
          giAiv 'uGjjeujjGjui ssajppe ajaidujoo
                                                        IBjaAas jxau aqj JBAO suojiejado UO|JBJ
      pue 'joajJGO 'ajnjdeo oi (SIA]V) ujajsAg
                                                     -JodsuBJi puB Buissaoojd JIBLU JO MSJABJ
      juaujaBeuBiA] ssajppv ^MJ paqsjiqejsa
                                                       apiM-LuapAs e Buijonpuoo Sj n •suojiep
     Jl VOBL u) 'SJSOO aonpaj pue 'AouaiO!j)a
                                                   -jjOSuGO dlAJV Bujsn aojAjBs pua Aouapijja
     aAOjduji 'Buijjos jiBLu jEnuEUj aonpaj oj
                                                        Buissaoojd HBLU aAOJdujj oj s>i3Bs aoiA
   (Sda) Bupuanbas jujod AjBAjjap papaLU
                                                      -jag jepoy aq] 'arsj3 qjjAA uojjounluoo uj
  -Bjdujj aojAjag jepod aqi '8661 qoJB)^ u|
                                                         •suojiBpnosuoQ Buissaoojcj /;B(^ eajy
                        •aoueiJOdujj MBU UG
                                                                      aojAJBs jBLuopno 01 papiaj
   SBHBi uoipLUJOju! ssejppe JG Aijpnb aqi
                                                      saiouapjjja [Buojpjedo BAOJdLUj aoiAjag
   'paujdjnba pajGujopB uo ipuj jo saujn
                                                       jBpoy aqj Bujdjaq JB |3BLU!E SJ BBJE siqj
    -|0A BuisBBJOUj sassBOGJd ij sv aoiAjas
                                                          ui >|J0AA jno -SJSOO ino oj S>|JOAA Ajsno
      aAGJduij pue spoo aonpaj UBO UOIJEUJ
                                                     -auBjjnLuis 11 BjiMM aoiAjag pjsoy aqj JO)
     -jojuj ssajppe apjdujoo pue IOSJJGO JO
                                                   ujBouoo juBOjjiuBis e sj aoiAjas BujAOJdujj
asn aqj asneoaq ped ui 'sJaujojsno sji JGJ
                                                        'jBABMoy •asn oj ASBB puB 'juapjsuoo
  puE asn jEUjajU! JOJ LiGijeujjojui ssajppe
                                                    'BAjsuodsaJ Bupq Aq suoippadxa jaujoj
Ajjpnb paqBjq aqi JOJ paAjjjs seq aojAjag
                                                     -sno peuj SBO|AJBs pus spnpojd iBjsod
  jBjsoy aqj 'sjeaA aqj JBAQ •sjajieuj ssau                                                                                                               A
                                                   p q i BujjnsuB puE ' p u j jjB jo Boueujjojjad
  -jsnq JGJ uoipujJGjuj jo anjBA paqsiuiujip
                                                        aoiAJBs puB-oj-pua sqj uo Bujsnooj Aq
       aqj GJ anp aojAJOS jaujojsno speduji
                                                          seoiAJBS iBjsod JO Ajiienb aqj aAOJdujj
    AiasjaApe pue sjsoo Bujpjado Bupsao
                                                      01 suGjd Jl 'sjujod ssaooe HE SSOJOB aojA
  -GJd ipuj saseajouj uoijeujjojui ssajppe
                                                          -Jas JBUiojsno paAOJduji pue 'AjaAjpp
      pajjGOut ijeuj aiqejaAjjapun aipueq oj
                                                             eiqEijBj 'Ajaujij apiAOJd oj si aoiAjas
       AjpnuuB uoiijiq L$ usqi ajoiii spuads
                                                     BAOJdujj OJ ABBJBJJS s.aoiAjag jepoy a q i
      aojAjag jepoy a q i -Buiouanbas luio^
AjSAijaQ s> lUBjsXg }uoaiaBBUB^ ssajppy                                 33IAa3S 3A0adlAII
                                                                      'S3|Aia£ Bu|Aoidiui puE SISOO Bupnpaj ui aoueiJodLUi A^au uo saviei
     uoiieuuojui ssaippe jo Aig^b aqt 'luaujdiitia paiEtuoine uo iieui |o saumioA BU|SGSJOU| Bi^ssaooid SBnuipoo aoiuas ie|sod sqi sy
                         6Bi9-StEEl am NOi.>IVO                              • diz ' a i v i s 'aoiddo J.SOd
                                  IS andvm u t f                                     ss3daavAa3Anaa
                                 0Mmi3NONV3S                                       • lM3ldl03H dO 31WN
                                53U(fi-)aNosun                    llVNOIidO) N0llN3iJ.V / NOIlVWaOdNI
                                      Zi9E0 sado                       fivNoudo) vj.va ss3aaovNON
                                                                                                                                  .tits
                                                              VBBvavau
                                                                aoo
             V3HV                                                                                            vaav
                                                                                                        ssanaov NUfuaa
            aovisod
                                                                               •apjAAuojpu siinsaj MBjAaj jaajjs Ajjpnb
                                                                            SlMV to luaujaBeuBUJ spojAjag lejsoy aqi
                                                                              ssasse oi MaiAaj jno puedxa oj ue|d O M
                                                                                                             *asn JBipq
                                                                              OJ jnd spunj uj gi76'886$ uj jpsej ppoo
                                                                               p q i suoippuaujLuooBJ pua sBujpujj jno
                                                                                UjjM paajBB jLtaujaBBUBiA] 'SJOJJB gtAjv
                                                                               BupiBLUBJ JO asneoaq SJBBA OL jxsu aqj
                                                                              JBAO gf 6'886$ JO spoo AjBAipp puE Buj
                                                                             -ssBoojd jnouj pjnoo pujsjQ apuBjgi ojy
                                                                            aqi pqi punoj B M 'paMBjAej jojjjsp aqj uj
                                                                             jsixa ABUJ SJOJJe Bjep giAIV 000'90L UBLU
UJ                                                                             ajouj 'sajnoj ne JOJ papnpuoo jou ajaM
o                                                                           SMBjAaj jaajp aoujg 'Sjep sj^v -if^Ml P Aji
>                                                                            -ienb aqi aAOJdujj oi suGjjeooj jaqjo LUOJJ
OC                                                                               saojjoBjd jsaq paLuajdujj ueo SjejOjjjG
UJ                                                                               aojAjag jejsGy punoj juaujssasse j n o
CO
Ul                                                                                                               •juauj
>                                                                                -dinba pajBLUOjne qjjAA Ajjuqijedujoo
o                                                                               azjUJjXBLU oj sspoo f+dlZ BujuBjSSV •
cc                                                                                     •sjnoj jBjjjBo qoea JOJ aouanbas
Q.
                                                                                          AjBAiiap joajjoo aqj BujjBpjjBA •
o
UJ
cc
CO
